<html>
<title> - CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 107-597]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 107-597
  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES
=======================================================================

                                HEARING

                               before the

                    SELECT COMMITTEE ON INTELLIGENCE

                                 of the

                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

            CURRENT AND PROJECTED NATIONAL SECURITY THREATS
                          TO THE UNITED STATES

                               __________

                            FEBRUARY 6, 2002












                       U. S. GOVERNMENT PRINTING OFFICE
81-064                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                            
                    SELECT COMMITTEE ON INTELLIGENCE

                     BOB GRAHAM, Florida, Chairman
               RICHARD C. SHELBY, Alabama, Vice Chairman
CARL LEVIN, Michigan                 JON KYL, Arizona
JOHN D. ROCKEFELLER IV, West         JAMES M. INHOFE, Oklahoma
    Virginia                         ORRIN G. HATCH, Utah
DIANNE FEINSTEIN, California         PAT ROBERTS, Kansas
RON WYDEN, Oregon                    MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          FRED THOMPSON, Tennessee
EVAN BAYH, Indiana                   RICHARD G. LUGAR, Indiana
JOHN EDWARDS, North Carolina
BARBARA A. MIKULSKI, Maryland
              Thomas A. Daschle, South Dakota, Ex Officio
                  Trent Lott, Mississippi, Ex Officio
                                 ------                                
                     Alfred Cumming, Staff Director
                  Bill Duhnke, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held in Washington, DC, February 6, 2002.................     1
Statement of:
    Ford, Hon. Carl W. Jr., Assistant Secretary of State for 
      Intelligence and Research..................................    28
    Tenet, Hon. George J., Director of Central Intelligence, 
      Central Intelligence Agency................................     5
    Watson, Dale L., Executive Assistant Director, 
      Counterterrorism and Counterintelligence, Federal Bureau of 
      Investigation..............................................    88
    Wilson, Vice Admiral Thomas R., Director, Defense 
      Intelligence Agency........................................    57
Supplemental Materials
    Letter to Hon. George J. Tenet transmitting Questions for the 
      Record.....................................................   163
    Letter to Hon. Carl W. Ford, Jr. transmitting Questions for 
      the Record.................................................   232
    Letter to Hon. Robert Mueller, transmitting Questions for the 
      Record.....................................................   331
    Letter to Vice Admiral Thomas Wilson transmitting Questions 
      for the Record.............................................   294
    Response to QFRs from CIA....................................   174
    Response to QFRs from DIA....................................   299
    Response to QFRs from State..................................   239
    Response to QFRs from FBI....................................   335


                          THE WORLDWIDE THREAT

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2002

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SH-216, Hart Senate Office Building, the Honorable Bob 
Graham (chairman of the committee) presiding.
    Committee Members Present: Senators Graham, Rockefeller, 
Wyden, Bayh, Edwards, Shelby, Kyl, Roberts, and DeWine.
    Chairman Graham. I call the meeting to order.
    For several years, this Committee has had a practice of 
commencing its annual oversight of the United States 
intelligence community by holding a public hearing to present 
to the American people and our Committee members the 
intelligence community's assessment of the current and 
projected national security threats to the United States.
    There is nothing more important to our national security 
than timely and accurate intelligence. Intelligence forms the 
foundation of our foreign policy and provides the basis of our 
nation's defense planning, strategy, and supports our 
warfighters.
    The intelligence community is our nation's early-warning 
system against threats to the lives and property of United 
States citizens and residents here and around the world. The 
importance of this mission became particularly apparent on 
September 11 when our nation's greatest strengths--our freedom, 
our openness--were successfully exploited by an elusive global 
network of determined zealots. The terrorist threat has been on 
the intelligence community's radar screen for years. Indeed, it 
was almost exactly a year ago today, on February 7th of 2001, 
when Director George Tenet testified at this same open session.
    He stated, and I quote, ``Usama bin Ladin and his global 
network of lieutenants and associates remain the most immediate 
and serious threat. His organization is continuing to place 
emphasis on developing surrogates to carry out attacks in an 
effort to avoid detection, blame and retaliation. As a result, 
it is often difficult to attribute terrorist incidents to his 
group, the al-Qa'ida.''
    While the intelligence community has been aware of the 
great threat posed by bin Laden and his terrorist organization, 
it is a priority of this Committee to ascertain what more the 
intelligence community could have done to avert the September 
11 tragedy. We must identify any systemic shortcomings in our 
intelligence community and fix those as soon as possible. We 
owe it to the American people to do all that we can to prevent 
a recurrence of September 11.
    These and other issues will be explored with our witnesses 
in a closed hearing this afternoon and for the remainder of 
this session of Congress. I want to thank our witnesses who are 
appearing here today. We have with us Mr. George Tenet, 
Director of Central Intelligence; Mr. Carl Ford, Assistant 
Secretary of State for Intelligence and Research; Vice Admiral 
Thomas Wilson, Director of the Defense Intelligence Agency; and 
Mr. Dale Watson, Executive Assistant Director for 
Counterterrorism and Counterintelligence.
    In order to optimize the time for questions of our 
witnesses, immediately after Vice Chairman Senator Shelby makes 
his opening statement, we will ask Director Tenet to present 
his testimony. We will ask our other witnesses to submit their 
full statements for the record. For our question-and-answer 
period, we will observe the normal Committee rule of first 
arrival, first to question. The questions will be limited to 
five minutes per round.
    Vice Chairman Shelby.
    Vice Chairman Shelby. Thank you, Mr. Chairman. We held our 
last open hearing on national security threats one year ago 
tomorrow, as Senator Graham has alluded to. Director Tenet, on 
that day, you testified here that first and foremost among the 
threats to the U.S. was the threat posed by international 
terrorism, and specifically by Usama bin Ladin's global 
terrorist network.
    We all agreed with you when you said, and I quote, ``The 
highest priority for our intelligence community must invariably 
be on those things that threaten the lives of Americans or the 
physical security of the United States.''
    To fight this terrorist threat, you assured us then, and I 
quote again, ``The intelligence community has designed a robust 
counterterrorism program that has preempted, disrupted and 
defeated international terrorists and their activities.'' In 
fact, you told us then, ``In most instances, we've kept 
terrorists off-balance, forcing them to worry about their own 
security and degrading their ability to plan and to conduct 
operations.''
    Seven months after your testimony, in an attack that 
apparently had been years in the planning, Usama bin Ladin's 
terrorists killed nearly 3,000 innocent Americans in less than 
one hour. As you know, the U.S. has an intelligence community 
today and a Director of Central Intelligence in large part 
because of the Pearl Harbor disaster of December 7th, 1941. The 
fear of another Pearl Harbor provided the impetus for our 
establishment of a national-level intelligence bureaucracy. 
This system was created so that America would never have to 
face another devastating surprise attack.
    That second devastating surprise attack came on 
September11th, and as I said, it killed more Americans than did the 
Japanese assault on Pearl Harbor. All of us, I think, owe the American 
people an explanation as to why our intelligence community failed to 
provide adequate warning of such a terrorist attack on our soil. After 
all, as Director Tenet has stated, the Director of Central Intelligence 
is hired not to observe and to comment but to warn and to protect.
    In the very near future, this Committee will join with the 
House Intelligence Committee in an effort to provide an 
explanation to the American people. Once we determine why we 
were caught completely by surprise, I believe we must then work 
together to ensure that there is no third Pearl Harbor.
    I'm pleased that the Director of Central Intelligence, 
George Tenet, and his colleagues have joined us today. These 
threat hearings are important, because understanding what the 
threats are is the first step toward helping our intelligence 
community meet the challenge of defending against them.
    Mr. Chairman, these hearings also give the respective 
leaders within the intelligence community an opportunity to 
speak directly to the American people. While the bulk of the 
activities of the intelligence community are secret, there is a 
great deal we can and I think we should discuss in a public 
forum, as you called for today.
    With that in mind, I ask each of our witnesses to address 
members' questions to the greatest extent possible in this open 
setting. Not long ago, our intelligence community faced a 
single clear threat--the Soviet Union and its communist 
allies--against which it could devote most of its resources and 
attention.
    With the end of the Cold War, the world situation facing 
our intelligence agencies underwent a fundamental change. Until 
that point, murky transnational threats had been only sideshows 
to the main event of the East-versus-West strategic rivalry. 
Today, however, coping with asymmetric transnational challenges 
such as terrorism has become the most important duty of our 
intelligence community.
    To say the least, the post-Cold War period has been one of 
difficult transition. Even before September 11, we had a rocky 
history of intelligence failures--among them, the bombing of 
Khobar Towers, the Indian nuclear test, the bombing of our East 
African embassies, the first attack on the World Trade Center 
buildings, and the attack upon the USS COLE.
    Examined individually, each of these failures, tragic in 
their own way, may not suggest a continuing or systemic 
problem. But, however, taken as a whole and culminating with 
the events of September 11, they present a disturbing series of 
intelligence shortfalls that I believe expose some serious 
problems in the structure of and approaches taken by our 
intelligence community.
    We will have many opportunities in the very near future to 
discuss the structural and organizational defects inherent in 
our intelligence community. But for today, we should remember 
that understanding the threat is the first step along a road 
that must lead to improvements in how our nation confronts 
these threats.
    It has become apparent that international terrorism now 
poses the most significant threat to our national security and 
our interests at home and abroad. I will be interested to hear 
what our intelligence agencies believe such threats will look 
like in the future.
    Just as militaries can face defeat if they keep trying to 
fight the last war, so can intelligence agencies suffer 
terrible strategic surprise if they spend their time trying to 
meet the last threat or if they try to meet new threats with 
the mindset, tactics and obsolete mythologies of the past.
    The U.S. clearly faces unprecedented dangers today, and we 
will surely face new ones tomorrow. I look forward to hearing 
from our witnesses today as we discuss these threats and how we 
can work together to defeat them in the future.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Mr. Vice Chairman.
    As indicated previously, we will now receive the testimony 
from Director Tenet. We'll ask for the other witnesses to 
submit their statements, and then we will proceed to questions.
    Director Tenet.
    [The prepared statements of Mr. Tenet, Mr. Ford, Admiral 
Wilson, and Dale Watson follow:]
[GRAPHIC] [TIFF OMITTED] 81064A.001

[GRAPHIC] [TIFF OMITTED] 81064A.002

[GRAPHIC] [TIFF OMITTED] 81064A.003

[GRAPHIC] [TIFF OMITTED] 81064A.004

[GRAPHIC] [TIFF OMITTED] 81064A.005

[GRAPHIC] [TIFF OMITTED] 81064A.006

[GRAPHIC] [TIFF OMITTED] 81064A.007

[GRAPHIC] [TIFF OMITTED] 81064A.008

[GRAPHIC] [TIFF OMITTED] 81064A.009

[GRAPHIC] [TIFF OMITTED] 81064A.010

[GRAPHIC] [TIFF OMITTED] 81064A.011

[GRAPHIC] [TIFF OMITTED] 81064A.012

[GRAPHIC] [TIFF OMITTED] 81064A.013

[GRAPHIC] [TIFF OMITTED] 81064A.014

[GRAPHIC] [TIFF OMITTED] 81064A.015

[GRAPHIC] [TIFF OMITTED] 81064A.016

[GRAPHIC] [TIFF OMITTED] 81064A.017

[GRAPHIC] [TIFF OMITTED] 81064A.018

[GRAPHIC] [TIFF OMITTED] 81064A.019

[GRAPHIC] [TIFF OMITTED] 81064A.020

[GRAPHIC] [TIFF OMITTED] 81064A.021

[GRAPHIC] [TIFF OMITTED] 81064A.022

[GRAPHIC] [TIFF OMITTED] 81064A.023

[GRAPHIC] [TIFF OMITTED] 81064A.024

[GRAPHIC] [TIFF OMITTED] 81064A.025

[GRAPHIC] [TIFF OMITTED] 81064A.026

[GRAPHIC] [TIFF OMITTED] 81064A.027

[GRAPHIC] [TIFF OMITTED] 81064A.028

[GRAPHIC] [TIFF OMITTED] 81064A.029

[GRAPHIC] [TIFF OMITTED] 81064A.030

[GRAPHIC] [TIFF OMITTED] 81064A.031

[GRAPHIC] [TIFF OMITTED] 81064A.032

[GRAPHIC] [TIFF OMITTED] 81064A.033

[GRAPHIC] [TIFF OMITTED] 81064A.034

[GRAPHIC] [TIFF OMITTED] 81064A.035

[GRAPHIC] [TIFF OMITTED] 81064A.036

[GRAPHIC] [TIFF OMITTED] 81064A.037

[GRAPHIC] [TIFF OMITTED] 81064A.038

[GRAPHIC] [TIFF OMITTED] 81064A.039

[GRAPHIC] [TIFF OMITTED] 81064A.040

[GRAPHIC] [TIFF OMITTED] 81064A.041

[GRAPHIC] [TIFF OMITTED] 81064A.042

[GRAPHIC] [TIFF OMITTED] 81064A.043

[GRAPHIC] [TIFF OMITTED] 81064A.044

[GRAPHIC] [TIFF OMITTED] 81064A.045

[GRAPHIC] [TIFF OMITTED] 81064A.046

[GRAPHIC] [TIFF OMITTED] 81064A.047

[GRAPHIC] [TIFF OMITTED] 81064A.048

[GRAPHIC] [TIFF OMITTED] 81064A.049

[GRAPHIC] [TIFF OMITTED] 81064A.050

[GRAPHIC] [TIFF OMITTED] 81064A.051

[GRAPHIC] [TIFF OMITTED] 81064A.052

[GRAPHIC] [TIFF OMITTED] 81064A.053

[GRAPHIC] [TIFF OMITTED] 81064A.054

[GRAPHIC] [TIFF OMITTED] 81064A.055

[GRAPHIC] [TIFF OMITTED] 81064A.056

[GRAPHIC] [TIFF OMITTED] 81064A.057

[GRAPHIC] [TIFF OMITTED] 81064A.058

[GRAPHIC] [TIFF OMITTED] 81064A.059

[GRAPHIC] [TIFF OMITTED] 81064A.060

[GRAPHIC] [TIFF OMITTED] 81064A.061

[GRAPHIC] [TIFF OMITTED] 81064A.062

[GRAPHIC] [TIFF OMITTED] 81064A.063

[GRAPHIC] [TIFF OMITTED] 81064A.064

[GRAPHIC] [TIFF OMITTED] 81064A.065

[GRAPHIC] [TIFF OMITTED] 81064A.066

[GRAPHIC] [TIFF OMITTED] 81064A.067

[GRAPHIC] [TIFF OMITTED] 81064A.068

[GRAPHIC] [TIFF OMITTED] 81064A.069

[GRAPHIC] [TIFF OMITTED] 81064A.070

[GRAPHIC] [TIFF OMITTED] 81064A.071

[GRAPHIC] [TIFF OMITTED] 81064A.072

[GRAPHIC] [TIFF OMITTED] 81064A.073

[GRAPHIC] [TIFF OMITTED] 81064A.074

[GRAPHIC] [TIFF OMITTED] 81064A.075

[GRAPHIC] [TIFF OMITTED] 81064A.076

[GRAPHIC] [TIFF OMITTED] 81064A.077

[GRAPHIC] [TIFF OMITTED] 81064A.078

[GRAPHIC] [TIFF OMITTED] 81064A.079

[GRAPHIC] [TIFF OMITTED] 81064A.080

[GRAPHIC] [TIFF OMITTED] 81064A.081

[GRAPHIC] [TIFF OMITTED] 81064A.082

[GRAPHIC] [TIFF OMITTED] 81064A.083

[GRAPHIC] [TIFF OMITTED] 81064A.084

[GRAPHIC] [TIFF OMITTED] 81064A.085

[GRAPHIC] [TIFF OMITTED] 81064A.086

[GRAPHIC] [TIFF OMITTED] 81064A.087

[GRAPHIC] [TIFF OMITTED] 81064A.088

[GRAPHIC] [TIFF OMITTED] 81064A.089

[GRAPHIC] [TIFF OMITTED] 81064A.090

[GRAPHIC] [TIFF OMITTED] 81064A.091

[GRAPHIC] [TIFF OMITTED] 81064A.092

[GRAPHIC] [TIFF OMITTED] 81064A.093

[GRAPHIC] [TIFF OMITTED] 81064A.094

[GRAPHIC] [TIFF OMITTED] 81064A.095

[GRAPHIC] [TIFF OMITTED] 81064A.096

[GRAPHIC] [TIFF OMITTED] 81064A.097

[GRAPHIC] [TIFF OMITTED] 81064A.098

[GRAPHIC] [TIFF OMITTED] 81064A.099

[GRAPHIC] [TIFF OMITTED] 81064A.100

[GRAPHIC] [TIFF OMITTED] 81064A.101

[GRAPHIC] [TIFF OMITTED] 81064A.102

[GRAPHIC] [TIFF OMITTED] 81064A.103

[GRAPHIC] [TIFF OMITTED] 81064A.104

[GRAPHIC] [TIFF OMITTED] 81064A.105

[GRAPHIC] [TIFF OMITTED] 81064A.106

[GRAPHIC] [TIFF OMITTED] 81064A.107

[GRAPHIC] [TIFF OMITTED] 81064A.108

[GRAPHIC] [TIFF OMITTED] 81064A.109

[GRAPHIC] [TIFF OMITTED] 81064A.110

[GRAPHIC] [TIFF OMITTED] 81064A.111

[GRAPHIC] [TIFF OMITTED] 81064A.112

[GRAPHIC] [TIFF OMITTED] 81064A.113

[GRAPHIC] [TIFF OMITTED] 81064A.114

[GRAPHIC] [TIFF OMITTED] 81064A.115

[GRAPHIC] [TIFF OMITTED] 81064A.116

[GRAPHIC] [TIFF OMITTED] 81064A.117

[GRAPHIC] [TIFF OMITTED] 81064A.118

[GRAPHIC] [TIFF OMITTED] 81064A.119

[GRAPHIC] [TIFF OMITTED] 81064A.120

[GRAPHIC] [TIFF OMITTED] 81064A.121

STATEMENT OF THE HONORABLE GEORGE J. TENET, DIRECTOR OF CENTRAL 
INTELLIGENCE, ACCOMPANIED BY THE HONORABLE CARL FORD, ASSISTANT 
SECRETARY OF STATE FOR INTELLIGENCE AND RESEARCH; VICE ADMIRAL 
 THOMAS R. WILSON, DIRECTOR, DEFENSE INTELLIGENCE AGENCY; AND 
DALE L. WATSON, EXECUTIVE ASSISTANT DIRECTOR, COUNTERTERRORISM 
    AND COUNTERINTELLIGENCE, FEDERAL BUREAU OF INVESTIGATION

    Director Tenet. Mr. Chairman, I appear before you this year 
under circumstances that are extraordinary and historic for 
reasons I need not recount. Never before has the subject of 
this annual threat briefing had more immediate resonance. Never 
before have the dangers been more clear or more present.
    September 11 brought together and brought home literally 
several vital threats to the United States and its interests 
that we have long been aware of. It is the convergence of these 
threats that I want to emphasize with you today: The connection 
between terrorists and other enemies of this country; the 
weapons of mass destruction they seek to use against us; and 
the social, economic and political tensions across the world 
that they exploit in mobilizing their followers.
    September 11 demonstrated the dangers that arise when these 
threats converge and remind us that we overlook, at our own 
peril, the impact of crises in remote parts of the world. This 
convergence of threats has created a world I will present to 
you today, a world in which dangers exist not only in those 
places we have most often focused our attention, but also in 
other areas that demand it; in places like Somalia, where the 
absence of a national government has created an environment in 
which groups sympathetic to al-Qa'ida have offered terrorists 
an operational base and potential safe haven; in places like 
Indonesia, where political instability, separatist and ethnic 
tensions and protracted violence are hampering economic 
recovery and fueling Islamic extremism; in places like 
Colombia, where leftist insurgents who make much of their money 
from drug trafficking are escalating their assault on the 
government, further undermining economic prospects and fueling 
a cycle of violence; and finally, Mr. Chairman, in places like 
Connecticut, where the death of a 94-year-old woman in her own 
home of anthrax poisoning can arouse our worst fears about what 
our enemies might try to do to us.
    These threats demand our utmost response. The United States 
has clearly demonstrated since September 11 that it is up to 
the challenge. But make no mistake: Despite the battles we have 
won in Afghanistan, we remain a nation at war. Last year I told 
you that Usama bin Ladin and the al-Qa'ida network were the 
most immediate and serious threat this country faced. This 
remains true, despite the progress we have made in Afghanistan 
and in disrupting the network elsewhere.
    We assess that al-Qa'ida and other terrorist groups will 
continue to plan to attack this country and its interests 
abroad. Their modus operandi is to continue to have multiple 
attack plans in the works simultaneously and to have al-Qa'ida 
cells in place to conduct them.
    We know that the terrorists have considered attacks in the 
U.S. against high-profile government or private facilities, 
famous landmarks and U.S. infrastructure nodes such as 
airports, bridges, harbors and dams. High-profile events such 
as the Olympics or last weekend's Super Bowl also fit the 
terrorists' interests in striking another blow within the 
United States that would command worldwide media attention.
    Al-Qa'ida also has plans to strike against U.S. and allied 
interests in Europe, the Middle East, Africa and Southeast 
Asia. American diplomatic and military installations are at 
high risk, especially in East Africa, Israel, Saudi Arabia and 
Turkey. Operations against U.S. targets could be launched by 
al-Qa'ida cells already in place in major cities in Europe and 
the Middle East. Al-Qa'ida can also exploit its presence or 
connections to other groups in such countries as Somalia, 
Yemen, Indonesia and the Philippines.
    Although the September 11 attacks suggest that al-Qa'ida 
and other terrorists will continue to use conventional weapons, 
one of our highest concerns is their stated readiness to 
attempt unconventional attacks against us. As early as 1998, 
bin Ladin publicly declared that acquiring unconventional 
weapons was a religious duty. Terrorist groups worldwide have 
ready access to information on chemical, biological and even 
nuclear weapons via the Internet, and we know that al-Qa'ida 
was working to acquire some of the most dangerous chemical 
agents and toxins.
    Documents recovered from al-Qa'ida facilities in 
Afghanistan show that bin Ladin was pursuing a sophisticated 
biological weapons research program. We also believe that bin 
Ladin was seeking to acquire or develop a nuclear device. Al-
Qa'ida may be pursuing a radioactive dispersal device, what 
some call a dirty bomb.
    Alternatively, al-Qa'ida or other terrorist groups might 
also try to launch conventional attacks against the chemical or 
nuclear industrial infrastructure of the United States to cause 
widespread toxic or radiological damage.
    We are also alert to the possibility of cyber warfare 
attack by terrorists. September 11 demonstrated our dependence 
on critical infrastructure systems that rely on electronic and 
computer networks. Attacks of this nature will become an 
increasingly viable option for the terrorists as they and other 
foreign adversaries become more familiar with these targets and 
the technologies required to attack them.
    The terrorist threat goes well beyond al-Qa'ida. The 
situation in the Middle East continues to fuel terrorism and 
anti-U.S. sentiment worldwide. Groups like the Palestinian 
Islamic Jihad and Hamas have escalated their violence against 
Israel, and the Intifada has rejuvenated once-dormant groups 
like the Popular Front for the Liberation of Palestine. If 
these groups feel that U.S. actions are threatening their 
existence, they may begin targeting Americans directly, as 
Hizbollah's terrorist wing already does.
    We're also watching states like Iran and Iraq that continue 
to support terrorist groups. Iran continues to provide support, 
includingarms transfers, to the Palestinian rejection groups 
and Hizbollah. Tehran also has failed to move decisively against al-
Qa'ida members who have relocated to Iran from Afghanistan. Iraq has a 
long history of supporting terrorists, including giving sanctuary to 
Abu Nidal.
    The war on terrorism, Mr. Chairman, has dealt severe blows 
to al-Qa'ida and its leadership. The group has been denied its 
safe haven and strategic command center in Afghanistan. Drawing 
on both our own assets and increased cooperation from allies 
around the world, we are uncovering terrorist plans and 
breaking up their cells. These efforts have yielded the arrest 
of nearly 1,000 al-Qa'ida operatives in over 60 countries and 
have disrupted terrorist operations and potential terrorist 
attacks.
    Mr. Chairman, bin Ladin did not believe that we would 
invade his sanctuary. He saw the United States as soft, 
impatient, unprepared and fearful of a long bloody war of 
attrition. He did not count on the fact that we had lined up 
allies that could help us overcome barriers of terrain and 
culture. He did not know about the collection and operational 
initiatives that will allow us to strike with great accuracy at 
the heart of the Taliban and al-Qa'ida. He underestimated our 
capabilities, our readiness and our resolve.
    That said, I must repeat that al-Qa'ida has not yet been 
destroyed. It and other like-minded groups remain willing and 
able to strike at us. Al-Qa'ida's leaders, still at large, are 
working to reconstitute the organization and resume its 
terrorist operations. We must eradicate these organizations by 
denying them their sources of financing, eliminating their 
ability to hijack charitable organizations for their terrorist 
purposes. We must be prepared for a long war and we must not 
falter.
    Mr. Chairman, we must also look beyond the immediate danger 
of terrorist attacks to the conditions that allow terrorism to 
take root around the world. These conditions are no less 
threatening to U.S. national security than terrorism itself. 
The problems that terrorists exploit--poverty, alienation and 
ethnic tensions--will grow more acute over the next decade. 
This will especially be the case in those parts of the world 
that have served as the most fertile recruiting grounds for 
Islamic extremist groups.
    We have already seen in Afghanistan and elsewhere that 
domestic unrest and conflict in weak states is one of the 
factors that create an environment conducive to terrorism. More 
importantly, demographic trends tell us that the world's 
poorest and most politically unstable regions, which include 
parts of the Middle East and sub-Saharan Africa, will have the 
largest youth populations in the world over the next two 
decades and beyond. Most of these countries will lack the 
economic institutions or the resources to effectively integrate 
these youth into their societies.
    All of these challenges come together in parts of the 
Muslim world, and let me give you just one example. One of the 
places where they converge that has the greatest long-term 
impact on any society is its educational system. Primary and 
secondary education in parts of the Muslim world is often 
dominated by an interpretation of Islam that teaches 
intolerance and hatred. The graduates of these schools, 
madrases, provide the foot soldiers for many of the Islamic 
militant groups that operate throughout the Muslim world.
    Let me underscore what the President has affirmed. Islam 
itself is neither an enemy nor a threat to the United States. 
But the increasing anger toward the West and toward governments 
friendly to us among Islamic extremists and their sympathizers 
clearly is a threat to us. We have seen and continue to see 
these dynamics play out across the Muslim world. Our campaign 
in Afghanistan has made great progress, but the road ahead is 
fraught with challenges. The Afghan people, with international 
assistance, are working to overcome a traditionally weak 
central government, a devastated infrastructure, a grave 
humanitarian crisis, and ethnic divisions that deepened over 
the last 20 years of conflict. The next few months will be an 
especially fragile period.
    Let me turn to Pakistan, Mr. Chairman. September 11 and the 
response to it were the most profound external events for 
Pakistan since the Soviet invasion of Afghanistan in 1979 and 
the U.S. response to that. The Musharraf government's alignment 
with the United States and its abandonment of nearly a decade 
of support for the Taliban represent a fundamental political 
shift with inherent political risks because of the militant 
Islamic and anti-American sentiments that exist within 
Pakistan.
    President Musharraf's intention to establish a moderate, 
tolerant, Islamic state, as outlined in his 12 January speech, 
is being welcomed by most Pakistanis, but we still have to 
confront major vested interests. The speech is energizing 
debate across the Muslim world about which vision of Islam is 
the right one for the future of the Islamic community. 
Musharraf established a clear and forceful distinction between 
a narrow, intolerant, conflict-ridden vision of the past and an 
inclusive, tolerant, and peace-oriented vision of the future. 
The speech also addressed the jihad issue by citing the 
distinction the prophet Mohammad made between the smaller jihad 
involving violence and the greater jihad that focuses on 
eliminating poverty and helping the needy.
    Although September 11 highlighted the challenges that India 
and Pakistan and their relations pose for U.S. policy, the 
attack on the Indian parliament on December 13th was even more 
destabilizing, resulting as it did in new calls for military 
action against Pakistan and subsequent mobilization on both 
sides. The chance of war between these two nuclear armed states 
is higher than at any point since 1971. If India were to 
conduct large-scale offensive operations into Pakistani 
Kashmir, Pakistan might retaliate with strikes of its own, in 
the belief that its nuclear deterrent would limit the scope of 
an Indian nuclear counter-attack.
    Both India and Pakistan are publicly downplaying the risks 
of nuclear conflict in the current crisis. We are deeply 
concerned, however, that a conventional war, once begun, could 
escalate into a nuclear confrontation, and here is a place 
where diplomacy and American engagement has made an enormous 
difference.
    Let me turn to Iraq. Saddam has responded to our progress 
in Afghanistan with a political and diplomatic charm offensive 
to make it appear that Baghdad is becoming more flexible on 
U.N. sanctions and inspection issues. Last month, he sent 
Deputy Prime Minister Tariq Azizto Moscow and Beijing to 
profess Iraq's new openness to meet its U.N. obligations and to seek 
their support. Baghdad's international isolation is also decreasing as 
support for the sanctions regime erodes among other states in the 
region.
    Saddam has carefully cultivated neighboring states, drawing 
them into economically dependent relationships in the hopes of 
further undermining their support for sanctions. The profits he 
gains from these relationships provide him with the means to 
reward key supporters, and more importantly to fund his pursuit 
of weapons of mass destruction. His calculus is never about 
bettering or helping the Iraqi people.
    Let me be clear. Saddam remains a threat. He is determined 
to thwart U.N. sanctions, press ahead with weapons of mass 
destruction, and resurrect the military force he had before the 
Gulf War. Today he maintains his vise grip on the levers of 
power through a pervasive intelligence and security apparatus, 
and even his reduced military force, which is less than half of 
its pre-war size, remains capable of defeating more poorly 
armed internal opposition and threatening Iraq's neighbors.
    As I said earlier, we continue to watch Iraq's involvement 
in terrorist activities. Baghdad has a long history of 
supporting terrorism, altering its targets to reflect changing 
priorities and goals. It has also had contacts with al-Qa'ida. 
Their ties may be limited by diverging ideologies, but the two 
sides' mutual antipathy towards the United States and the Saudi 
royal family suggest that tactical cooperation between them is 
possible, even though Saddam is well aware that such activity 
would carry serious consequences.
    In Iran, we are concerned that the reform movement may be 
losing its momentum. For almost five years, President Khatami 
and his reformist supporters have been stymied by Supreme 
Leader Khamenei and the hard-liners. The hard-liners have 
systematically used the unelected institutions they control--
the security forces, the judiciary, and the guardians council--
to block reforms that challenge their entrenched interests. 
They have closed newspapers, forced members of Khatami's 
cabinet from office, and arrested those who have dared to speak 
out against their tactics.
    Discontent with the current domestic situation is 
widespread, and cuts across the social spectrum. Complaints 
focus on the lack of pluralism and government accountability, 
social restrictions and poor economic performance. Frustrations 
are growing as the populace sees elected institutions such as 
the Majlis and the presidency unable to break the hardliners' 
hold on power.
    The hard-line regime appears secure for now because 
security forces have easily contained dissenters and arrested 
potential opposition leaders. No one has emerged to rally 
reformers into a forceful movement for change, and the Iranian 
public appears to prefer gradual reform to another revolution, 
but the equilibrium is fragile and could be upset by a 
miscalculation by either the reformers or the hard-line 
clerics.
    For all of this, reform is not dead. We must remember that 
the people of Iran have demonstrated in four national elections 
since 1997 that they want change and have grown disillusioned 
with the promises of the revolution. Social, intellectual and 
political developments are proceeding. Civil institutions are 
growing, and new newspapers open as others are closed.
    The initial signs of Tehran's cooperation in common cause 
with us in Afghanistan are being eclipsed by Iranian efforts to 
undermine U.S. influence there. While Iran's officials express 
a shared interest in a stable government in Afghanistan, its 
security forces appear bent on countering American presence. 
This seeming contradiction in behavior reflects a deep-seated 
suspicion among Tehran's clerics that the United States is 
committed to encircling and overthrowing them, a fear that 
could quickly erupt in attacks against our interests.
    We have seen little sign of a reduction in Iran's support 
for terrorism in the past year. Its participation in the 
attempt to transfer arms to the Palestinian Authority via the 
Karine A probably was intended to escalate the violence of the 
intifada and strengthen the position of Palestinian elements 
that prefer armed conflict with Israel.
    The current conflict between Israel and the Palestinians 
has been raging for almost a year and a half, and it continues 
to deteriorate. The violence has hardened the public's 
positions on both sides and increased the longstanding 
animosity between Israeli Prime Minister Sharon and Palestinian 
leader Arafat. Although many Israelis and Palestinians say they 
believe that ultimately the conflict can only be resolved 
through negotiations, the absence of any meaningful security 
cooperation between Israel and the Palestinian Authority, and 
the escalating and uncontrolled activities of the Palestinian 
Islamic Jihad and Hamas make progress extremely difficult.
    We're concerned that this environment creates opportunities 
for any number of players, most notably Iran, to take steps 
that will result in further escalation of violence by radical 
Palestinian groups. At the same time, the continued violence 
threatens to weak the political center in the Arab world and 
increases the challenge for our Arab allies to balance their 
support for us against the demands of their public.
    Mr. Chairman, let me now turn to the subject of 
proliferation. I would like to start by drawing your attention 
to several disturbing trends. Weapons of mass destruction 
programs are becoming more advanced and effective as they 
mature and as countries of concern become more aggressive in 
pursuing them. This is exacerbated by the diffusion of 
technology over time, which enables proliferators to draw on 
the experience of others, and develop more advanced weapons 
more quickly than they could otherwise.
    Proliferators are also becoming more self-sufficient, and 
they are taking advantage of the dual-use nature of weapons of 
mass destruction and missile-related technologies to establish 
advanced production capabilities and to conduct WMD and 
missile-related research under the guise of legitimate 
commercial or scientific activity.
    With regard to chemical and biological weapons, the threat 
continues to grow for a variety of reasons and to present us 
with monitoring challenges. On the nuclear side, we are 
concerned about the possibility of significant nuclear 
technology transfers going undetected. This reinforces our need 
for closely examining emerging nuclearprograms for sudden leaps 
in capability.
    On the missile side, the proliferation of ICBM and cruise 
missile designs and technology has raised the threat to the 
United States from weapons of mass destruction delivery systems 
to a critical threshold. As outlined in our recent national 
intelligence estimate on the subject, most intelligence 
community agencies project that by 2015 the U.S. will most 
likely face ICBM threats from North Korea and Iran, and 
possibly Iraq. This is in addition to the longstanding missile 
forces of Russia and China. Short- and medium-range ballistic 
missiles pose a significant threat right now.
    Mr. Chairman, Russian entities continue to provide other 
countries with technology and expertise applicable to CW, BW, 
nuclear and ballistic missile and cruise missile projects. 
Russia appears to be the first choice of proliferant states 
seeking the most advanced technology and training. These sales 
are a major source of funds for Russian commercial and defense 
industries and military research and development. Russia 
continues to supply significant assistance on nearly all 
aspects of Tehran's nuclear program. It is also providing Iran 
with assistance on long-range ballistic missile.
    Chinese firms remain key suppliers of missile-related 
technologies to Pakistan, Iran and several other countries. 
This in spite of Beijing's November 2000 missile pledge not to 
assist in any way countries seeking to develop nuclear-capable 
ballistic missiles. Most of China's efforts involve solid 
propellant ballistic missiles, developments for countries that 
are largely dependent on Chinese expertise and materials. But 
it has also sold cruise missiles to countries of concern, such 
as Iran.
    North Korea continues to export complete ballistic missiles 
and production capabilities, along with related raw materials, 
components and expertise. Profits from these sales help 
Pyongyang to support its missile and probably other WMD 
development programs, and in turn generate new products to 
offer its customers, primarily Egypt, Libya, Syria and Iran.
    North Korea continues to comply with the terms of the 
agreed framework that are directly related to the freeze on its 
reactor program. But Pyongyang has warned that it is prepared 
to walk away from the agreement if it concluded that the United 
States was not living up to its end of the deal.
    Iraq continues to build and expand an infrastructure 
capable of producing weapons of mass destruction. Baghdad is 
expanding its civilian chemical industries in ways that could 
be diverted quickly into CW production. We believe Baghdad 
continues to pursue ballistic missile capabilities that exceed 
the restrictions imposed by U.N. resolutions. With substantial 
foreign assistance, it could flight-test a longer-range 
ballistic missile within the next five years.
    We believe that Saddam never abandoned his nuclear weapons 
program. Iraq maintains a significant number of nuclear 
scientists, program documentation, and probably some dual-use 
manufacturing infrastructure that could support a reinvigorated 
nuclear weapons program. Baghdad's access to foreign expertise 
could support a rejuvenated program. But our major near-term 
concern is the possibility that Saddam might gain access to 
fissile material.
    Iran remains a serious concern because of its across-the-
board pursuit of weapons of mass destruction and missile 
capabilities. Tehran may be able to indigenously produce enough 
fissile material for a nuclear weapon by later this decade.
    Mr. Chairman, both India and Pakistan are working on the 
doctrine and tactics for more advanced nuclear weapons, 
producing fissile material and increasing their stockpiles. We 
have continuing concerns that both sides may not be done with 
nuclear testing. Nor can we rule out the possibility that 
either country could deploy their most advanced nuclear weapons 
without additional testing.
    Mr. Chairman, I want to talk about Russia, China and North 
Korea, and then we will go to questions. And I appreciate the 
patience, but I think it's important.
    Mr. Chairman, with regard to Russia, the most striking 
development, aside from the issues I have just raised, 
regarding Russia over the past year has been Moscow's greater 
engagement with the United States. Even before September 11, 
President Putin had moved to engage the United States as part 
of a broader effort to integrate Russia more fully into the 
West, modernize its economy, and regain international status 
and influence. This strategic shift away from a zero-sum view 
of relations is consistent with Putin's stated desire to 
address many socioeconomic problems that could cloud Russia's 
future.
    During his second year in office, he moved strongly to 
advance his policy agenda. He pushed the Duma to pass key 
economic legislation on budget reform, legitimizing urban 
property sales, flattening and simplifying tax rates, and 
reducing red tape for small businesses. His support for his 
economic team and its fiscal rigor positioned Russia to pay 
back wages and pensions to state workers, and amassed a post-
Soviet high of almost $39 billion in reserves. He has pursued 
military reform. And all of this is promising, Mr. Chairman. He 
is trying to build a strong presidency that can ensure these 
reforms are implemented across Russia, while managing a 
fragmented bureaucracy beset by internal networks that serve 
private interests.
    In his quest to build la strong state, however, we have to 
be mindful of the fact that he is trying to establish 
parameters within which political forces must operate. This 
managed democracy is illustrated by his continuing moves 
against independent national television companies. On the 
economic front, Putin will have to take on bank reform, 
overhaul Russia's entrenched monopolies and judicial reform to 
move the country closer to a Western-style market economy, and 
attract much-needed foreign investment.
    Putin has made no headway in Chechnya. Despite his hint in 
September of a possible dialogue with Chechen moderates, the 
fighting has intensified in recent months, and thousands of 
Chechen guerrillas and their fellow Arab mujahidin fighters 
remain. Moscow seems unwilling to consider the compromises 
necessary to reach a settlement, while divisions among the 
Chechens make it hard to find a representative interlocutor. 
The war meanwhile threatens to spill over into neighboring 
Georgia.
    After September 11, Putin emphatically chose to join us in 
the fight against terrorism. The Kremlin blames Islamic 
radicalism for the conflict in Chechnya, and believes it to be 
a serious threat to Russia. Moscow sees the U.S.-led 
counterterrorism effort, particularly the demise of the Taliban 
regime, as an important gain in countering the radical Islamic 
threat to Russia and Central Asia.
    So far Putin's outreach to the United States has incurred 
little political damage, largely because of his strong domestic 
standing. At the same time, Mr. Chairman, Moscow retains 
fundamental differences with us, and suspicion about U.S. 
motive persists among Russian conservatives, especially within 
the military and the security services. Putin has called the 
intended U.S. withdrawal from the ABM Treaty a mistake, but has 
downplayed its impact on Russia. At the same time, Russia is 
likely to pursue a variety of countermeasures and new weapons 
system to defeat a U.S.-deployed missile defense.
    With regard to China, Mr. Chairman, I told you last year 
that China's drive to become a great power was coming more 
sharply into focus. The challenge, I said, was that Beijing saw 
the United States as the primary obstacle to its realization of 
that goal. This was in spite of the fact that the Chinese 
leaders at the same time judged that they needed to maintain 
good ties with us.
    A lot has happened in U.S.-China relations over the past 
year, from the tenseness of the EP-3 episode in April, to the 
positive image of President Bush and Jiang Zemin standing 
together in Shanghai last fall, highlighting our shared fight 
against terrorism.
    September 11 changed the context of China's approach to us, 
but it did not change the fundamentals. China is developing an 
increasingly competitive economy and building a modern military 
force with the ultimate objective of asserting itself as a 
great power in East Asia. And although Beijing joined the 
coalition against terrorism, it remains skeptical of U.S. 
intentions in Central and South Asia. It fears that we are 
gaining regional influence at China's expense, and views our 
encouragement of a Japanese military role in counterterrorism 
as support for Japanese rearmament, something that the Chinese 
firmly oppose.
    On the leadership side, Beijing is likely to be preoccupied 
this year with succession jockeying, as top leaders decide who 
will get what positions, who will retire at the Party Congress, 
and in the changeover in government positions that will follow 
next spring. This preoccupation is likely to translate into a 
cautious and defensive approach on most policy issues. It 
probably also translates into a persistently nationalist 
foreign policy, as each of the contenders in the succession 
context will be obliged to avoid any hint of being soft on the 
United States.
    Taiwan also remains the focus of China's military 
modernization programs. Over the past year, Beijing's military 
training exercises have taken on an increasingly real-world 
focus, emphasizing rigorous practice and operational 
capabilities and improving the military's actual ability to use 
force. This is aimed not only at Taiwan but at increasing the 
risk to the United States itself in any future Taiwan 
contingency. China also continues to upgrade and expand the 
conventional short-range ballistic missile force it has arrayed 
against Taiwan.
    Finally, Mr. Chairman, let me say that with regard to North 
Korea the suspension last year of engagement between Pyongyang, 
Seoul and Washington reinforced the concerns I cited last year 
about Kim Jong-II's intentions towards us and our allies in 
Northeast Asia. His reluctance to pursue a constructive 
dialogue with the South, or to undertake meaningful reforms 
suggests that he remains focused on maintaining internal 
control at the expense of addressing the fundamental economic 
failures that keep the North Koreans mired in poverty, and pose 
a long-term threat to the country's stability.
    North Korea's large standing army continues to be a primary 
claimant on scarce resources, and we see no evidence that 
Pyongyang has abandoned its goal of eventual reunification of 
the peninsula under the North's control.
    Mr. Chairman, I skipped some things, and I'll end there, 
because I think we want to move to questions as soon as you 
can. I wonder, Mr. Chairman, if I can just respond for a minute 
to both of your opening statements on the whole terrorism issue 
and how we proceed ahead, because I think it's important. You 
get to speak to the American people--so do I--and I think it's 
important that they hear us on this question.
    We welcome the Committee's review of our record on 
terrorism. It's important we have a record. It is a record of 
discipline, strategy, focus and action. We are proud of that 
record. We have been at war with al-Qa'ida for over five years. 
Our collective success inside Afghanistan bears a reflection of 
the importance we attach to the problem and a reflection of a 
demonstrated commitment to expanding our human assets, 
technical operations, fused intelligence, seamless cooperation 
with the military. These are things we have been working on 
very hard over the last five years.
    During the millennium threat, we told the President of the 
United States that there would be between five and 15 attacks 
against American interests both here and overseas. None of 
these attacks occurred--primarily because of the result of 
heroic effort on the part of the FBI and the CIA inside the 
United States and overseas to ensure that those attacks were 
not successful.
    A year later the COLE was bombed. We lost a battle there. 
Part of the problem that we need to address as you look at this 
is not only to assess what we can do unilaterally or in 
conjunction with our military and law enforcement colleagues, 
but the countries out there who have often deflected us, or 
have not recognized there was a terrorism problem, who didn't 
help us solve problems that we could not solve simply on our 
own.
    In the last spring and summer we saw--in the spring and 
summer of 2001--again we saw spectacular threat reporting about 
massive casualties against the United States. These threat 
reportings had very little texture with regard to what was 
occurring inside the United States. We again launched a massive 
disruption effort. We know that we stopped three or four 
American facilities from being bombed overseas. We know we 
saved many American lives. We never had thetexture that said 
the date, time and place of the event inside the United States would 
result in September 11. It was not the result of the failure of 
attention and discipline and focus and consistent effort, and the 
American people need to understand that.
    What Tom Ridge is doing today in protecting the homeland, 
in thinking about our border control policies, our visa 
policies, the relationship between all our organizations--
airport security--all of these things must be in place. 
Intelligence will never give you 100 percent predictive 
capability on terrorist events.
    This community has worked diligently over the last five 
years, and the American people need to understand that with the 
resources and authorities and priorities the men and women of 
the FBI and the CIA performed heroically. Whatever shortcomings 
we may have, we owe it to the country to look at ourselves 
honestly and systematically. But when people use the word 
``failure,'' ``failure'' means no focus, no attention, no 
discipline--and those were not present in what either we or the 
FBI did here and around the world.
    And we will continue to work at it. But when the 
information or the secret isn't available, you need to make 
sure your backside is protected. You need to make sure there is 
a security regime in place that gives you the prospect of 
succeeding--and that's what we all need to work on together.
    The decision of the President to go inside the sanctuary 
and take the war to the Taliban and al-Qa'ida may be the most 
significant thing that happened, because all of this 
preparation has resulted in destroying that sanctuary, even as 
we chase everybody around the world. We have disrupted numerous 
terrorist acts since September the 11th, and we will continue 
to do so with the FBI. And we welcome the Committee's review. 
It is important for the American people. But how we paint it is 
equally important, because they need to know that there are 
competent men and women who risk their lives and undertake 
heroic risks to protect them.
    Thank you, Mr. Chairman. Thank you, Mr. Vice Chairman.
    Chairman Graham. Thank you, Mr. Director.
    Mr. Director, we are all concerned about the aftermath of 
September 11 and what we are doing in order to reduce the 
prospects of a similar horrific event in the future. One of the 
issues that you discussed was the fact that Usama bin Ladin did 
not believe that the United States would retaliate in the way 
it did.
    What was the basis of bin Ladin's failure to appreciate 
what the consequences of his action should be? And what is your 
assessment of the similar feelings of other terrorist groups or 
of the leaders of the nations that you have described as being 
the most threatening to the United States as to what U.S. 
response would be to their actions against the interests of the 
United States here in the homeland or abroad?
    Director Tenet. Well, sir, obviously in my statement--well, 
I have never had a chance to talk to bin Ladin--I would love 
the opportunity some day, and I speculate. But I think that the 
importance of the sanctuary--I think he always believed it 
would be denied as a place where we would operate directly. And 
I think the importance of devastating the central command and 
control node can't be underestimated. The disruption that's 
occurred is formidable. And Afghanistan will not be replicated 
other places in the world.
    Other governments with whom we are working with will have 
to step up to the challenge of recognizing that just because it 
is Americans who are killed, in fact in the World Trade Center 
many, many people from many nations were killed. Their law 
enforcement practices, their visa control systems, their 
willingness to change their laws to allow us to work with them 
to disrupt these organizations means that what we need to tell 
these people is that you cannot operate any place safely in the 
world, and that rather than go up and down--rather than a 
focused--you know, one of the problems is people somehow--my 
fear is six months from now everybody will say, well, the World 
Trade Center has receded--so the leadership that the President 
has shown and the country has shown is going to make a marked 
difference, because they need to understand that there will be 
consequences that are very real and very direct to their 
ability to try and hurt us.
    Having said that, we know they'll continue to plan. We know 
that they will hurt us again. We have to minimize their ability 
to do so, because there's no perfection in this business.
    The importance of Tom Ridge's effort in unifying homeland 
security cannot be underestimated as the important back end to 
what we and the FBI do. And as we get better at this, what we 
hope to do is change the security environment that terrorists 
operate in. After all, if you look carefully, in our closed 
session today, if you look at the profile of these 19 or 20 
people, most were here legally. Most operated almost as sleeper 
cells. Most gave the FBI no probable cause to believe something 
was going to happen. Compartmentation of the information, all 
of these are very difficult things for us to deal with. And we 
have to get after it. So that's how I'd answer the question, 
sir.
    Chairman Graham. Mr. Ford, does the State Department and 
our diplomatic corps feel as if it has sufficient understanding 
of the opinion of our adversaries, whether they be governments 
such as those who were described as the axis of evil 
governments, or non governmental groups such as other terrorist 
operations--what their expectation is of a U.S. response to an 
act by them that would be adverse to our interests?
    Mr. Ford. Mr. Chairman, I think we all would agree that we 
never have enough information. We can always use new knowledge 
about all of these threats that we face. I think that the State 
Department in general--our embassies overseas, the people here 
in Washington--feel as if both the President and the Congress 
are providing us with the resources that we need to be able to 
not only understand the problems, but also, at least from a 
Department of State perspective, express U.S. views overseas 
through our diplomats.
    I think if I had to point to one area which I think that 
the State Department has as a priority, it is increasing the 
number of young diplomats overseas who are reporting basically 
on an unclassified basis on various groups--students, labor, 
business, political leaders to be.Much of that reporting over 
the last 20 years has been decimated by budget cuts and reductions in 
the size of the embassies. Secretary Powell is committed to changing 
that. So I think that we in INR are very grateful for the changes that 
we see occurring, because there is going to be more information, more 
knowledge for us to analyze and provide to the Secretary and to others 
in the community.
    Chairman Graham. I am going to pursue this line of 
questioning further. The order of questioning will be the Vice 
Chairman, followed by Senators Roberts, Rockefeller, Bayh, 
DeWine and Kyl.
    Mr. Vice Chairman.
    Vice Chairman Shelby. Thank you, Mr. Chairman.
    Director Tenet, I think your statement today is--you have 
laid out a lot of the challenges and a lot of the successes, 
and we all know that--only maybe the public doesn't all know of 
a lot of the successes of the CIA and the FBI and NSA, and 
other members of the intelligence community. We all know that 
we have some of the best and dedicated people that you could 
recruit in America at the CIA, at the FBI, at the NSA--and we 
can go on--and the DIA and you name it.
    But some of us are worried about whether the system they 
are in is designed to fail. And this would be part, I think, of 
our overall inquiry which we will be into. But that's another 
day, and that's a big thing. Because what we are really 
interested in here is designing a system, helping the 
intelligence community with funds and with legislative 
structure to do the job to protect the security of the American 
people. I think we are all in the same book, the same page and 
book.
    But with that in mind--and you went through it some a few 
minutes ago, Director Tenet--why were we utterly unaware of the 
planning and execution of the September 11 attacks? In other 
words, what went wrong? We know that you are not going, as you 
laid out, you are not going to ever be 100 percent. But these 
attacks were so well planned, so well executed, I know they 
caught us all by surprise, had to catch you by surprise. You 
weren't shocked, because you warned us before about these type 
attacks. But the American people ask these questions. We will 
be asking them, and I know you have asked yourselves those 
questions.
    Director Tenet. Well, sir, it's an important question, but 
I have to tell you that when you do this every day--and we do 
this every day----
    Vice Chairman Shelby. Absolutely.
    Director Tenet [continuing]. The shock was not that the 
attack occurred, but where it occurred. So, was there a piece 
of information that was collected that led us there? No. Did we 
know in broad terms that he intended to strike the United 
States? There is no doubt about that. He started in 1993. They 
tried to come over the border in Canada during the millennium 
threat.
    The operational difficulties of what you are up against in 
the United States, when you take the profile of these people--
and Dale Watson should speak to this himself--and what they 
showed, and how little evidence they provided to us in terms of 
this is something we are now evaluating in terms of what is the 
profile, how do they operate. How do we talk to states and 
locals about things? What other changes need to be made?
    But is there some piece of information out there, sir, that 
nobody saw? That's not the case. In fact, in July and August, 
when we saw the operational tempo around the world go down 
overseas, it was very clear that what had been planned had been 
delayed. It was very clear in our own minds that this country 
was a target. There was no texture to that feeling. We wrote 
about it, we talked about it, we warned about it. The nature of 
the warning was almost spectacular. Some people in town thought 
that this was deception. It was never deception, because of how 
much we understand this target.
    Did we have penetrations of the target? Absolutely. Did we 
have technical operations? Absolutely. Where did the secret for 
the planning reside? Probably in the heads of three or four 
people. And at the end of the day, all you can do is continue 
to make the effort to steal that secret and break into this 
leadership structure. And we have to keep working at it. There 
will be nothing you do that will guarantee 100 percent 
certainty. It will never happen.
    Vice Chairman Shelby. What have we learned? What have you 
learned in the intelligence community that you can share in the 
open session with the American people?
    Director Tenet. There are some positive things that have 
been learned about what you talk about about future structure, 
about all of the fusion that has occurred--the federation of 
military intelligence and its analysis; the fusion of how NSA, 
CIA, and the community operates in terms of bringing all 
sources together, which we have worked on quite hard over the 
last five years; the notion that you have--people have said 
individual disciplines functioning autonomously where 
information is not shared is simply untrue.
    The importance of continuing clandestine human operations 
to penetrate these groups, the importance of continued 
cooperation with allied countries around the world who help you 
do this business is absolutely indispensable. The resources 
that the President has provided us to enhance our flexibility, 
to maximize our ability to operate, is a very important lesson. 
You can't operate in 68 countries without a substantial 
resource base, and he has given us that opportunity.
    So there is an extraordinary knowledge of this target. We 
did not start from a standing start. We wouldn't have succeeded 
the way we did with our military and our Bureau colleagues in 
Afghanistan if we had not known how to act and a lot of the 
reforms that we have been talking about had not been put in 
place. The relentless pursuit of the secret and the human 
penetration of these organizations is something that we have to 
continue to attempt to do. And that progress over the last five 
years has been substantial.
    Mr. Ford. Mr. Chairman, could I add a comment? INR, as you 
know, is a very small organization. We are not representative 
of all of the bigger intelligence organizations. But I think 
that at least from our perspective, my perspective, I learned 
one important thing--is that for me getting more money or even 
more people was not what I--since I didn't get any of that--it 
wasn't something that I really missed. The factis that what I 
couldn't have gotten by without were my people, my experts. People that 
have been on the job 25, 30 years, 15 years, you can't replace them 
with 10 rookies. You have one old hand that might train 10 rookies, but 
you are not going to be able to have the rookies come in and start 
producing right away. It's something that you have to build for the 
future.
    I don't know about the rest of the community--I think they 
face the same problem we do--but over the next five to seven 
years we are losing a good portion of our expertise. So that 
while we don't have a problem recruiting new people, we are 
going to have to work on retaining the ones that we have got, 
and making sure before they leave us that they leave us a 
legacy of students and apprentices that have learned all the 
tricks of the trade before they leave. And that's something 
that I think you can help the DCI and all of us with in terms 
of thinking long term with personnel. I know it's expensive. I 
know it's a problem.
    You can't have good intelligence without good people, 
period.
    Director Tenet. Mr. Chairman, I think it's true.
    Chairman Graham. Mr. Director.
    Director Tenet. I think it's true of all of us. By the year 
2005, between 30 and 40 percent of the men and women of CIA 
will have been there for five years or less. We're about to 
overhaul the entire compensation and reward system to reflect 
on keeping the best and the brightest and retaining expertise. 
But at the end of the day, people matter, and expertise, as is 
embodied in our Counterterrorism Center and knowledge of the 
target, can never be replaced.
    Vice Chairman Shelby. We can help, and we will help. Thank 
you, Mr. Chairman.
    Chairman Graham. Senator Roberts.
    Senator Roberts. Yes, thank you, Mr. Chairman.
    There has been a nationwide alert, from time to time, to 
the law enforcement agencies and the private sector to prepare 
for the possibility of attacks against critical infrastructure 
facilities. I know you've had some sit-downs with the 
Department of Agriculture. When we asked the so-called experts 
in Emerging Threats Subcommittee in the Armed Services 
Committee, what keeps you up at night, they would refer to 
bioterrorism; cyber attacks; chemical warfare; a weapon of mass 
destruction--i.e. the dirty bomb that you referred to; their 
use of explosives. But you can list about 100 things, and 
they'll probably do 101, because that's the definition of a 
terrorist.
    We've had a discussion about the possibility of anybody 
conducting what I call agriterrorism, or an attack on our food 
supply, food security. I know when we asked the FBI two or 
three years ago about the risk and the chance, the risk was 
very high in terms of chaotic results all throughout the 
country not only in farm country from an economic standpoint, 
but the specter of having the National Guard, you know, handing 
out your food supplies to people who are trying to hoard food.
    My question to you is, where is that in your status of 
worries? And what terrorist groups are the likeliest to conduct 
such operations?
    Director Tenet. Well, sir, first, I met with the Secretary 
of Agriculture last week to discuss this, to discuss a tighter 
relationship between us in working through this. But one of the 
things that we're learning, and we'll talk a bit about it more 
in closed session today, is the BW piece of this seems to be 
more advanced than anything else, and the focus on pathogens 
and the development of different strains of diseases.
    If you think about what they will try to do to us, this al-
Qa'ida/Sunni network--psychological disruption, eat away at the 
fabric of your people, make it difficult to detect, and when 
you think about agriterrorism, the food process, all those 
things--this is something we have to get ahead of. This is 
something we need to think through a lot harder, because there 
is vulnerability.
    Now, how you quantify it at this moment, I don't have an 
ability to quantify it, but you do know that you better get 
ahead of it now, because of the way they exploit 
vulnerabilities.
    Senator Roberts. I've said that to Tom Ridge and others. It 
is so easy to do. And I think the results would be absolutely 
catastrophic.
    Let me ask you another question on assessment of the threat 
to the United States in our own hemisphere. If there's one area 
that really represents problems to the daily life and 
pocketbooks of Americans in regards to drugs, in regards to 
immigration, in regards to border safety, in regards to 
energy--because Mexico and also Venezuela do supply a great 
majority of our energy, not to mention trade--it is Latin and 
Central America, or what we refer to as the 31 countries of the 
Southern Command.
    I'm very worried about that, more particularly in regards 
to Venezuela and a fellow name Hugo Chavez, who I think could 
be another Castro.
    I would appreciate your assessment. You do that on page 21 
of your testimony. If you could underscore that a little bit, 
the threat to the U.S. within our own hemisphere, and are there 
organized terrorist cells in Central and South America that 
could carry out attacks against our country, such as 9/11?
    Director Tenet. Sir, obviously, Venezuela is important 
because they're the third-largest supplier of petroleum. I 
would say that Mr. Chavez--and the State Department may say 
this--probably doesn't have the interests of the United States 
at heart. But at the same time, there is a deterioration in the 
economic and general conditions in that country that he's 
responsible for. So I think he's a tough actor for us.
    Maybe you want to say some more about that.
    Mr. Ford. Well, it seems to me--and I'm not an expert on 
Chavez or South America--but when you can't solve your basic, 
fundamental economic problems that Venezuela faces with the 
natural resources that it has available, you've got to blame 
somebody. And I think that he's found that it's easier and more 
politically correct for him in Venezuela to blame us.
    Senator Roberts. Well, that's what Castro does.
    Mr. Ford. That's right. And that's why he joins with Castro 
in several occasions in voicing concerns about the U.S. That 
doesn't bother me so much as long as it's just words. But there 
are alsoindications that he is sympathetic and helpful to the 
FARC in Colombia and various other groups. So that I'm sure that all of 
us are going to be watching very closely to see what goes on in 
Venezuela and with President Chavez in particular.
    Senator Roberts. Let me ask you the ``axis of evil'' 
question, which has started some meaningful dialogue with our 
allies overseas, more especially our NATO allies. From a 
counterterrorism standpoint, what is more threatening about 
Iran, Iraq and North Korea, in view of the President's State of 
the Union message, than other countries that are listed as 
state sponsors of terrorism?
    Director Tenet. I'm sorry, sir, what is more----
    Senator Roberts. What is more threatening about these 
countries? Obviously, the President has indicated you have to 
go to the source. He has put these countries on notice. There 
is what I call some meaningful dialogue now as to what that 
really means. And what I'm asking you to do is to say from a 
threat standpoint, from a counterterrorism standpoint, what's 
more threatening about these countries than the others?
    Director Tenet. Well, sir, first of all, the Iranians and 
their support for Hizbollah, I mean Hizbollah is a world-class 
terrorist organization, and their continued use of Hizbollah 
and their own surrogates is a very fundamental challenge to 
American interests.
    Senator Roberts. I'm for the speech, by the way. I just 
would like to get your take on it.
    Director Tenet. Yes, sir. But from a terrorism perspective, 
their continued use of both terrorist groups and their own 
IRGC, not only to plan terrorist acts, but to support radical 
Islamic groups, radical Palestinian groups, undermine the peace 
process, when you couple that support with a WMD profile, 
ballistic missiles, nuclear capability, I mean, you have--in a 
regime controlled by hardliners, you have a series of twin 
issues in the convergence I talk about that poses substantial 
risk and challenge to the United States, and we have to pay 
attention to it.
    The North Korean piece, I would say is, look, the ballistic 
missile threat that we talked about in our Estimate in my 
testimony, you know, every--the SCUD/Nodong exports are the 
basis of which so much of this ICBM capability is going to be 
developed and the ability of countries to mix and match those 
frames and further threaten us, not just with short-range 
ballistic missiles, but with longer-range missiles that you 
have to think about as becoming more prominent to you.
    And the Iraqi piece, as I referenced, you know, the WMD 
profile I gave you and my interest in being very careful about 
was there a convergence of interest here between al-Qa'ida and 
the Iraqis, don't know the answer to the question yet--pursuing 
it very, very carefully. There was a press story today that 
said CIA dismisses these linkages.
    Well, you don't dismiss linkages when you have a group like 
al-Qa'ida who probably buys and sells all kinds of capabilities 
for people who have converging interests, whether Sunni or 
Shi'a, and how they mixed and matched training capabilities, 
safe harboring, and money is something we're taking a look at.
    So nobody dismisses anything. Everybody's on the table, and 
these networks of terrorism should no longer be thought about 
purely in terms of the state's interests, what they say 
publicly, what their obvious interests are and how they see the 
benefit in hurting the United States.
    Senator Roberts. I really appreciate that. Let me ask you 
one more question on what the coffee klatch or the coffee club 
in Dodge City, Kansas, would ask. And that is, there have been 
a number of reports, either right or not, that the CIA had 
downgraded its human intelligence effort in the Afghan region. 
I know that you have stated very clear that it's not the case, 
that there were serious shortages of officers within the 
necessary language qualifications. That probably is the case. 
And there was a disinclination to get too close to the 
terrorist networks. Now I'm not trying to put that as a fact; 
I'm just saying that's background.
    But what the fellows at the Dodge City coffee klatch ask me 
is, if John Walker Lindh could get to talk to Usama bin Ladin, 
why in the heck couldn't the CIA get an agent closer to him?
    Director Tenet. Well, I'm not going to do this in open 
session, but you better tell everybody at the cafe it's not 
true.
    Senator Roberts. I got you.
    Chairman Graham. Thank you, Senator.
    Mr. Watson. Mr. Chairman, may I just quickly comment?
    I know you're interested in the Department of Agriculture, 
Senator, and they receive all our threat warnings and the 
information. And additionally, a Department of Agriculture 
detailee is with us since 9-11, and we're considering that in 
our Joint Terrorism Task Force.
    Senator Roberts. I appreciate that. I talked with them 
yesterday, and they indicate if there was a stovepipe, it 
doesn't exist anymore.
    Mr. Watson. That's right.
    Chairman Graham. Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being with us today. I am grateful for your 
service to our country. I'm reminded of I think it was a quote 
put on the cover of the budget submission last year, quoting 
Napoleon to the effect that a well-placed spy is worth two 
divisions. With the war that we're fighting today, I think 
that's probably an underassessment. So what you do is vitally, 
vitally important.
    I'm going to direct my questions to Director Tenet. Any of 
the rest of you who would like to jump in, please feel free to 
do so.
    Director Tenet. They would love to comment, too, Senator.
    Senator Bayh. I'm sure they would.
    I was reminded of something Abraham Lincoln also once said, 
Director, about your being the only one who was given the 
opportunity to make an oral statement, about being run out of 
town on a rail. He said, ``Except for the honor of the thing, I 
would just as soon have passed it up.'' So in any event, thank 
you for your presentation.
    I'm going to ask about Iran. I'd first like to lay the 
foundation here a little bit. You indicated, Director, that 
you've seen little change in Iran's sponsorship of terrorist 
activities. Based upon that, I wouldassume that you would still 
consider them to be the foremost state sponsor of terrorism in the 
world. That true?
    Director Tenet. Yes, sir.
    Senator Bayh. You also indicated that they were involved 
in, I think the quote was, across-the-board pursuit of weapons 
of mass destruction. Now one of their top officials in the last 
several days has come out and categorically denied that they 
are involved in seeking chemical, biological or nuclear 
weapons. So I would assume that his statements are more proof 
of their mendacity than their innocence, in your opinion.
    Is there any doubt in your mind, any doubt whatsoever, that 
they are vigorously involved in pursuing weapons of mass 
destruction?
    Director Tenet. None whatsoever, Senator.
    Senator Bayh. Russia and China, you indicated, have been 
involved in assisting, directly or indirectly, their pursuit of 
weapons of mass destruction. What should we think about that? 
If Iran and some of these other regimes are an axis of evil, 
are Russia and China involved with enabling evil?
    Director Tenet. Well, sir, I would say that, first of all, 
they are both separate. The reasons may be different. And at 
times we have distinctions between government and entities. And 
that's always--and I don't want to make it a big distinction, 
but sometimes you're dealing with both those things.
    Senator Bayh. The governments in Beijing and Moscow don't 
have----
    Director Tenet. No, sir, I didn't say that. There are 
instances where you have entities that are doing business. But 
if you look at the Russian relationship with the Iranians, it's 
long term, going back to the time of the czars, an interest in 
a strategic relationship there for a whole host of reasons--
access to water, oil and gas, whatever it is.
    What is difficult to understand is why the minimal amount 
of money you would gain from those kinds of activities in 
generating the kind of threat they pose, not just to us, but to 
the Russians and Russian interests around the world, would 
continue to allow cooperation to occur by entities--with or 
without the government's knowledge--why the government can't do 
more to get on top of this and ensure that we don't create a 
ballistic missile threat in the region that will only result in 
other countries in the region acquiring that capability, will 
only result in all that. And quite, frankly, this is an issue 
of dialogue between the President and President Putin.
    Senator Bayh. What's your answer to that question? It's so 
manifestly not in their own long-term self-interest.
    Director Tenet. Sir, it must be about their perception 
about how they gain influence. We haven't talked about 
conventional weapons and the importance of that. But as you're 
trying to resurrect a modern economy, you don't have a lot of 
chips to play with. Weapons are one thing you have to play 
with, expertise of people and other things. And it's 
incongruous in terms of, on the one hand, you see a Russian 
behavior and some very positive things President Putin has done 
in terms of reforming their economy and moving in the right 
direction; on the other hand, a record on proliferation that I 
think belies a commitment to the kind of issues and norms that 
we would expect them to pursue. So this is an ongoing 
discussion.
    But clearly, expertise, foreign assistance, whether it's 
Russian or Chinese, is the escalator clause in anybody's 
ability to quickly mix and match capabilities and develop 
indigenous capabilities. And it is a problem. And you have to 
get after, in the Chinese sense, a deeply embedded PLA interest 
in earning income from these kinds of activities. You have to 
get after strategic influence, particularly what it may buy you 
in places like the Middle East, where your country will have an 
increasing oil dependency in the future, and the thought about 
how you compete against the United States.
    But they pursue these for their own reasons. They are 
inimical to our own interests and relationships that we would 
like to establish, and they will threaten American forces and 
interests. So these are problem areas that we have to continue 
to talk about every year and put them out in the open because 
they're a problem.
    Senator Bayh. It seems to me, in evaluating whether the 
Russians and the Chinese are truly being cooperative in the war 
on terror, the fight against proliferation needs to be 
somewhere fairly up high on the list.
    Director Tenet. And it's interesting that in the war on 
terror, they have been cooperative. You see, everybody checks 
different boxes. We have had good cooperation with the Russians 
and Chinese on the war on terrorism, and it's an important--you 
know, this has given the President and the Secretary of State 
an opportunity to try and transform relationships.
    Senator Bayh. Getting back to Iran for a minute, the reason 
I'm focusing on Iran, Director, is I believe that in the long 
run, this may be one of the foremost threats facing our 
country, from that regime. What's the Agency's analysis of the 
domestic situation within Iran? You mentioned the fact that the 
moderates had won the last several elections. What's the 
assessment in terms of them eventually gaining more control 
over the security and intelligence apparatus in that country?
    Director Tenet. Well, as I noted in the statement in some 
detail, I think the jury's out. I think--you know, here's some 
interesting things to think about. Sixty-three percent of the 
Iranian population was born after 1979.
    They don't have any context to judge this. There have been 
elections. There's a political dialogue in the country. There's 
a vibrancy to it.
    It's not Iraq in that sense. There are private 
relationships where these things are discussed. At the same 
time, you see an immature political opposition. And the 
immaturity of the opposition is, I think, something to focus 
on, dealing with an entrenched, tough security apparatus that 
uses non-elected vehicles to break back and make it more 
difficult for reform to occur as fast as it might.
    So it's an interesting and open question that we have to 
continue to follow. So, on the one hand, you have behavior on 
terrorism and weapons of mass destruction that you are deeply 
troubled about.On the other hand, there appears to be a very 
big opportunity with people who may want to have nothing to do with all 
that or something to do with all that. The Iranians may well, in any 
event, want weapons of mass destruction for their own historic 
sensibilities of who they are in the region.
    But the point is, this is a very conflicted society that is 
continuing to evolve. And the question is, when does good 
overcome bad, or when do people who want reform, how fast does 
the opposition mature? Who's the leader that takes them there? 
How does it really flow? These are very interesting, difficult 
questions for us.
    Senator Bayh. I assume we're allocating significant 
resources to that.
    Director Tenet. We're paying a lot of attention to those 
targets, sir.
    Senator Bayh. Mr. Chairman, I have difficulty seeing the 
lights from here. Is my time----
    Chairman Graham. I'm afraid you're on the red.
    Senator Bayh. I'm on the red. Okay, very good. I'd like to 
thank you, gentlemen. Director, I'd like to thank you. You're 
doing a very good job, and we want to help you any way we can.
    Chairman Graham. The next questioners will be Senators 
DeWine, Kyl and Edwards. Senator DeWine.
    Senator DeWine. Thank you, Mr. Chairman.
    Mr. Watson, have we had long enough to tell what impact the 
U.S. Patriot Act is having, the anti-terrorism bill? Or is the 
jury still out on that?
    Mr. Watson. The jury is still out on that. But, Senator, 
it's been a help, particularly the change in the words of the 
FISA, the use of the grand jury material, detaining through the 
INS process and those types of things. But it has been helpful 
and it will continue to be helpful.
    Senator DeWine. We're interested, many of us, of course, 
are in seeing what else needs to be done.
    Mr. Watson. There are some items we have under discussion 
with the department. But as of right now, particularly those 
areas I mentioned, particularly the national security letters 
we're able to get out much quicker. We appreciate the Patriot 
Act.
    Senator DeWine. Mr. Tenet----
    Director Tenet. Senator, could I comment on that?
    Senator DeWine. Please.
    Director Tenet. I think that----
    Senator DeWine. I'm just trying to help you out here. You 
don't have to answer all the questions. Go ahead, Mr. Tenet.
    Director Tenet. Access to criminal information, grand jury 
information for threat purposes we've now been provided. It's 
been a very meaningful contribution to our understanding of a 
lot of things that we can now do trend analysis on. It's been 
very, very helpful.
    Senator DeWine. And that was one of the things that we 
hoped.
    Director Tenet. Enormously helpful to us.
    Mr. Watson. That has been a tremendous help, yes, 
absolutely.
    Senator DeWine. Good. Mr. Tenet, let me ask you to 
speculate, if you could, if you're comfortable in talking about 
it, in regard to training camps. Training camps have been 
destroyed. How long does it take to set camps like that back up 
again? And would you want to speculate about that in public, 
about the ability to do that?
    Director Tenet. Well, I guess that's all going to be a 
function, ultimately, of the interim government, its evolution, 
our influence.
    Senator DeWine. Well, I don't mean necessarily there.
    Director Tenet. Well, other places. As you know, there are 
other places.
    Admiral Wilson. I'd like to comment on it.
    Senator DeWine. Admiral.
    Admiral Wilson. What was removed in Afghanistan from al-
Qa'ida, in my view, was the elimination of their Fort Bragg or 
their Fort Irwin national training center. And when you arrest 
terrorists around the world, they come from many different 
nationalities. They come from different cells and 
organizations. But virtually all of them have one thing in 
common. They were all trained in Afghanistan, indoctrinated in 
the camps. It was truly military-style training that was 
ongoing. And the best and the brightest of them, they went on 
up into other kind of terrorist acts.
    So it is difficult to establish the scale and the 
complexity of that kind of an operation that was unmolested in 
Afghanistan somewhere else, because we are committed to this 
global war on terrorism. It's expensive. You can't hide it too 
easily and all those sorts of things. But it essentially was as 
important to them as I think some of our national training 
centers are to our military.
    Senator DeWine. That puts it in perspective; appreciate it.
    Mr. Watson. And, Senator, the difference, too, is that we 
knew about the camps in Afghanistan for years. The difference 
now is we did something about it. If somebody someplace else 
tries to build a training center, I'm very confident in my 
colleagues in Defense and FBI and CIA that they won't be there 
very long.
    Senator DeWine. I think the President's made that pretty 
clear.
    Senator Roberts asked you, Director, about South America. 
He talked a little bit about the importance of that. And I 
guess one of the concerns that we all have is that this is our 
backyard. It's not an area that has been overrepresented as far 
as our intelligence community.
    And now you have all the other problems that we have and 
all the drains. We have Colombia. We have Venezuela. We have 
Argentina. We have the tri-border region. All our drugs come 
out of this area of the world, or most of them do. We could go 
on and on and on and on.
    So give me a little perspective about how, as the Director, 
you can deal with that as far as the resources that you have. 
And also, if you could, give me a little insight into what you 
see going on in Colombia. Let's assume that the peace 
negotiations don't turn out. We hope they do. What do you see 
the FARC doing in the future, and what kind ofthreat is that to 
U.S. citizens in Colombia? For example, we see the FARC moving into 
urban areas more.
    Director Tenet. Well, let me get to part two, and then, 
with regard to the first question, we should talk about this in 
closed session, because it goes to the heart of priorities and 
allocation of people and resources. But we are stressed. And 
the war on terrorism alone has resulted in a massive migration 
of people and resources, and we're trying to balance all these 
things. Your back door is vitally important. Drugs is very, 
very important.
    But there is a tension about how we allocate these things, 
Senator, that we're trying to work through right now and make 
the best judgments we can about how we allocate people around 
the world. Carl, do you want to say something about that?
    Mr. Ford. On that first part, I would only add that all of 
us, I think, have noticed the coming together of drug 
traffickers, organized crime, international organized crime, 
and terrorists, even in the sense of just the logistics 
arrangement--pass money, do favors for--so that anywhere you 
have drug traffickers and organized crime and terrorists, 
you're going to have a problem. Clearly there are a number of 
places in our own hemisphere that have such problems. Colombia, 
other parts of South America come to mind.
    This is one that it's very difficult to try to focus on the 
immediate problem. I think we in the intelligence community 
have to learn flexibility. We have to realize that if you push 
one button, four buttons someplace else are going to pop out 
and that we have to design an approach that gives us much 
greater coverage and depth at the same time. And that's a 
challenge.
    Senator DeWine. Director, can you just--I know my time is 
up--could you just answer briefly the question on Colombia?
    Director Tenet. Well, obviously there's an election coming 
up. Obviously the peace process is not going forward. We are 
concerned that the FARC is going to up the ante here and 
threaten--and particularly threaten not only Colombians, but 
us. So this is a situation that we're all watching very 
carefully.
    We have to see how these elections come out and how a new 
president decides to engage, and then look at how we want to 
continue on with Plan Colombia and how we think about this 
problem. But the drug problem is still there. The 
narcotrafficking, the insurgency, all of these things continue 
to undermine the fabric of this country. And we need to think 
our way through, particularly after the election, where we're 
going to be.
    Senator DeWine. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator. Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman.
    First, to Mr. Tenet or other members of the panel, I'm 
interested in the policy concomitant to your concerns expressed 
about controlling technology transfers, especially, as you 
said, because of the dual-use capabilities of weapons of mass 
destruction and missile-related technologies. What would be 
useful to you to better detect and therefore deter such 
technology transfers?
    Director Tenet. On the policy side, sir?
    Senator Kyl. Yes. In other words, you've testified that 
this is a big problem. And therefore, you must have an idea of 
what might be done to eradicate the problem.
    Director Tenet. Sir, one of the challenges we have in 
designing a new regime is that you find there are lines that 
are drawn, that activity falls beyond whether it's a complete 
missile system or components of a missile system. And I haven't 
looked at the MTCR, but it is a mistake to assume that the 
regimes that are in place provide us the kind of security that 
we're looking for. And it's a very important question. I 
haven't thought through how I'd redesign it. But I know that a 
lot slips underneath.
    And the problem with this issue is as follows. The 
indigenous capabilities of the people you care about the most, 
the component that falls outside of the regime, is all they may 
need to complete that work. So we may have design regimes at 
one point in time where there was a have-and-have-not quality 
to this; in other words, the supplier was the dominant actor 
you wanted to watch.
    Well, that's not true anymore. And as a consequence, 
whatever we design has to acknowledge the fact that things that 
come in under the transom, that don't neatly fit into a 
verification regime or a legal framework, are every bit as 
worrisome to us. But it's an important question.
    Mr. Ford. Well, I think that this also goes back to, I 
think, Senator Roberts' question--the issue of both weapons of 
mass destruction and terrorism. We have this unusual 
circumstance where the non-state terrorists, we know they want 
them. We know they're trying. But they have not yet succeeded 
in getting weapons of mass destruction.
    On the other hand, we have the states that traditionally 
supported terrorism that are less involved, to some extent, 
than they were in the past. But they're going gangbusters with 
weapons of mass destruction. If you look out five, 10 years and 
you see both of these trends continuing and you think about New 
York City, you think about the Pentagon, you think about the 
horrendous danger that the world faces, not just America, all 
of a sudden weapons of mass destruction takes on a different 
context.
    Before 9/11, we could talk about terrorism and say, ``Let's 
get tough with this and let's get tough with that.'' Some of 
our allies didn't even support us. The difference now is when 
we talk about proliferation, rather than a new scheme, we need 
``You're either with us or you're agin' us.''
    Senator Kyl. Sometimes we're our own worst enemy. We've not 
been as careful about being able to identify the end users, 
which is what both of you are getting to here. We used to pay a 
lot of attention to that, and I think you want us to pay more 
attention to it. And so may I just request--and the reason I 
point to the light is I have two or three other questions here, 
and we could talk about this all day--I really would appreciate 
and I think the committee would appreciate receiving some kind 
of memorandum from you about ideas of what would be useful to 
the intelligence community to get a better handle on 
thisproblem of technology transfer, dual-use issues, end users and the 
like. That would be very, very helpful to us.
    I was at the Wehrkunde in Munich, Germany, the annual 
security conference, with our NATO allies. And there were some 
interesting comments at that conference. I just wanted to 
confirm a couple of points, Director Tenet, that I think you 
made earlier.
    Minister of Defense Ivanov was a bit indignant about 
suggestions that Russia was proliferating to Iran, for example, 
and said, ``There is absolutely no evidence that Russia is 
providing any technology transfer to Iran,'' although he did 
say, ``except for the nuclear program, which is for peaceful 
purposes.'' Is he correct in that statement?
    Director Tenet. No, sir. And Sergei and I have talked about 
this privately and directly. So, no, we respectfully disagree.
    Senator Kyl. Thank you. And let me confirm what I think you 
told Senator Bayh. Is it still correct to call Iran today the 
world's largest state sponsor of terrorism or proliferation of 
terrorism?
    Director Tenet. Yes, sir, I believe that. Does anybody have 
a different view?
    Senator Kyl. Okay. The reason I mentioned that is that the 
President's speech raised a lot of consternation among some of 
our allies when he referred to the ``axis of evil.''
    I suggested that he wasn't talking about a group of three 
countries that were carefully calibrating their policies 
together, but rather three sides of a triangle, probably 
identifying the three toughest nuts to crack here in terms of 
states. And in addition, of course, he made the point there are 
many other kinds of organizations. Is that perhaps a more 
correct way to look at what you think he might have intended to 
say?
    Director Tenet. I believe so, sir.
    Senator Kyl. And in that regard, all three of these 
countries deserve the attention not just of the United States, 
but we can certainly use the help of our allies in crafting 
policies that may or may not involve military means, but in 
crafting policies that would direct our attention jointly to 
these three separate and big challenges?
    Director Tenet. Yes, sir, and that their participation with 
us is absolutely essential if we're not going to experience the 
outgrowth of their behavior in some catastrophic way as well.
    Senator Kyl. Mr. Chairman, I can't tell from the lights 
either, but am I on red?
    Chairman Graham. You're in the red zone.
    Senator Kyl. Thank you. Thank you very much.
    Chairman Graham. Senator Edwards.
    Senator Edwards. Thank you, Mr. Chairman. Good morning, 
gentlemen.
    Director Tenet, I was on the ground in Afghanistan a few 
weeks ago and had the opportunity to meet with some of our 
intelligence operatives there and to see the conditions under 
which they're operating. And I have to tell you it was very 
impressive--the professionalism, the hard work they're doing, 
working 24 hours a day under very, very difficult conditions, 
extreme weather. There may have been running water where I was, 
but I didn't see it. It was a very impressive operation, and 
the information they had was also very impressive. So I wanted 
to tell you that firsthand.
    Director Tenet. Thank you, sir. They're great people.
    Senator Edwards. Yeah, very impressive.
    But it's obvious there's a lot of work left to be done. Is 
bin Ladin still alive?
    Director Tenet. Don't know, sir.
    Senator Edwards. When is the last time we had information 
indicating he was still alive?
    Director Tenet. I'd be happy to talk about all of this in 
closed session this afternoon.
    Senator Edwards. I understand that. Is there any 
information you can give us about that publicly?
    Director Tenet. No, sir.
    Senator Edwards. Same question about Omar.
    Director Tenet. Oh, I believe he's alive, sir.
    Senator Edwards. Okay. And can you give us any information 
publicly about the last time we knew his whereabouts?
    Director Tenet. No.
    Senator Edwards. Let me switch subjects, if I can, here, to 
the United States, and, Mr. Watson, let me direct these 
questions to you. What information can you give us publicly 
about the presence of al-Qa'ida cells here within the United 
States and the extent to which you believe we are able to 
monitor their activity here, without giving away any 
information.
    Mr. Watson. Sure, and I'm sure we'll talk about this in 
closed a little more.
    Senator Edwards. Yes.
    Mr. Watson. There are hundreds of investigations that we 
have open. I'll comment on that. An interesting point that 
Senator Shelby raised, I probably should address is, you know, 
of the 19, the commonalities that we saw in that, a key point 
to remember is, the 19 individuals all came in legally in the 
U.S. Thirteen of the 19 came in real late in the process--May, 
June, July of this past year.
    The question I think Senate Shelby was hitting at is, why 
didn't we detect any of these people? The answer is, there were 
no contacts with anybody we were looking at inside the United 
States.
    If they needed a driver's license, they paid somebody $50 
to $100 to do it. And there's a whole set of commonalities, 
which I'll be glad to talk to you about in the closed session.
    But the answer to your question is, there's an ongoing, 
very active program of identifying individuals and where these 
individuals come from. Where we get those leads are from the 
CIA and from the DIA, document exploitation in Afghanistan. 
There's a whole myriad of things that happen under this 
program.
    And back to Mr. Tenet's statement, George's statement, 
quite honestly, with zero contact in the United States of any 
of our known people with the 19 individuals coming here that we 
had no information about, intelligence-wise, prior to, through 
no one's fault, that's how they did it.
    Senator Edwards. Can you, without disclosing anything that 
would in any way hinder your investigation, can you tell us 
whether, yes or no, are there al-Qa'ida cells operating within 
the United States today?
    Mr. Watson. I think I'll hold that conversation to the 
closed hearing. There are individuals, obviously, that I 
mentioned. Are there core cells like the 19? Have we identified 
anybody that carries the commonalities of the 19? No, not at 
this process. But if you go back and look at the figures--and I 
know I'm on your clock, and I'll be real quick about it--if you 
go back and look the commonalities of the age of the 19, how 
many of those individuals have come in from the countries that 
the 19 were from--Saudi Arabia, UAE, Lebanon and Egypt--you 
have, since December 31st of 1999, you have over 70,000 
individuals that have entered the United States under that 
category. So it's a huge, huge problem, and I look forward to 
talking to you some more about those numbers.
    Senator Edwards. Okay. If I can broaden that question--and 
again, limit this to what you're able to say publicly, please--
Hizbollah, Islamic Jihad, Hamas cells within the United States?
    Mr. Watson. Presence in the United States? Absolutely.
    Senator Edwards. They all have cells within the United 
States?
    Mr. Watson. Yes.
    Senator Edwards. Can you tell us anything, without giving 
us any details, of the pervasiveness of their presence?
    Mr. Watson. No. No, sir, I cannot. No.
    Senator Edwards. But that is something you'll be able to 
tell us later?
    Mr. Watson. Yes, sir. I'll be glad to talk to you about 
that.
    Senator Edwards. Okay. Let me switch subjects. I've been 
concerned, and in fact I've introduced legislation on this 
issue, about the possibility and the potential threat of 
cyberterrorism. What I'd like, if you would, is to have you 
address that issue, tell me what you're doing, first starting 
with how serious is the threat, what is the potential damage 
from cyberterrorism, and third, what are you doing, and are you 
working with private business to address that problem?
    Mr. Watson. Sure. First of all, there is a real threat from 
the cyber arena. We have the National Infrastructure Protection 
Center set up. It's not owned by the FBI. It's a community 
center where we've brought down people from DOD and----
    Senator Edwards. Okay, I don't mean to interrupt you, but 
tell us first how serious the threat is and what the potential 
damage is.
    Mr. Watson. The threat, as we have seen in the al-Qa'ida 
investigations and in terrorism investigations and across the 
board in criminal investigations, the threat posed by cyber on 
being able to transmit information, communicate with each other 
is absolute. And that's the wave of the future. If you're 
talking specifically, Senator, about the infrastructure and can 
someone attack the infrastructure through the cyber means, they 
have the capability, and that's why we put so much time and 
effort as a community on this.
    Senator Edwards. And what's the potential for harm if they 
were successful at doing that?
    Mr. Watson. Sure. A couple of incidents might be if--and 
these are truly made-up stories here, but what if the FARC 
decided that for whatever reason they wanted to change U.S. 
government policy about cocaine spraying or in the drug arena, 
and they had the capability of saying, if you don't stop that, 
then we're going to turn all the lights off down in the state 
of Florida, or we're going to disrupt the power to the 
northeast part of the United States. That's a threat of the 
cyber. What if--and I know my time's short here.
    But on the defensive side--and if you think about that for 
a second--and I know this is an open hearing--that is a 
tremendous threat. We need the capability to be able to 
understand that and be able to counter that threat. Just real 
quick on the statistics: 1,200 cases of our National 
Infrastructure Protection Center last year, over 55 percent had 
ISPs involved outside the United States.
    Senator Edwards. Good.
    Very quickly, Mr. Chairman.
    Director Tenet, you're shaking your head. You obviously 
agree with that, you consider this a serious threat.
    Director Tenet. Yes, sir.
    Senator Edwards. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    First question, I wanted to begin with you, Mr. Tenet, if I 
could. What is your view of the degree to which the Saudis have 
cooperated in identifying and capturing suspected terrorists?
    Director Tenet. Well, sir, I'll give you a short answer and 
would be pleased to talk about this at length in closed 
session, but I would tell you that since September 11 we have 
had excellent cooperation in this regard. And I don't want to 
go beyond that here.
    Senator Wyden. Can you tell us--and again, I understand the 
sensitivity in a public session--whether you think that they 
are moving to deal with the font of terror, these various 
religious schools that provide the cadre for terror groups?
    Director Tenet. Sir, I'd like to talk about all that in 
closed session, thank you.
    Senator Wyden. All right. Cuba is still listed by the 
administration as a state sponsor of terrorism. Would you give 
us an example, in your view, of how Cuba currently sponsors 
terrorism?
    Mr. Watson. From law enforcement's perspective, Cuba 
certainly harbors a lot of fugitives and individuals that we 
still are concerned with, particularly the Puerto Rican issue 
and some other big-time individuals that have been convicted of 
terrorist crimes.
    Mr. Ford. My staff also suggests in the answer to the 
question in my book that there are 20 ETA members in Cuba, and 
they provide some degree of safe haven and support to the 
Colombian FARC and ELN groups. Bogota is aware of this 
arrangement; apparently it does not object.
    Cuban spokesmen revealed in August that Sinn Fein's 
official representative for Cuba and Latin America, who was one 
of the three Provisional IRA members arrested in Colombia on 
suspicion of providing explosives training to the FARC, have 
been based in Cuba for five years. Some U.S. fugitives continue 
to live on the island.
    Senator Wyden. What can you tell us, again given the fact 
that this is a public session, about what is being done to 
address these threats that you describe?
    [Pause.]
    Senator Wyden. Sounds like everybody's tripping over 
themselves to answer.
    Director Tenet. I don't have an answer, sir.
    Mr. Watson. On the law enforcement, on the fugitive side, 
in public I'd rather not say what we're doing at this point in 
time. But we're certainly working with the intelligence 
community.
    Senator Wyden. Is there anything else to be said with 
respect to how we're dealing with this in public?
    Director Tenet. No, sir, I don't think so.
    Senator Wyden. All right. We'll ask about that in private.
    Senator Roberts. Will the senator yield? I'm over here.
    Chairman Graham. Senator Roberts.
    Senator Wyden. I'd be happy to yield to a Kansan.
    Senator Roberts. One of the questions that I had was does 
the intelligence community believe that the resumption of U.S. 
trade with Cuba could hasten the economic and political reform 
in Cuba, given the fact that Castro is 77 years old, and that 
when he passes from the scene--and I was not aware until your 
commentary that in terms of state-sponsored terrorism that they 
were exporting terrorism, certainly to the degree that they 
were before when they were getting, what, $2 billion from the 
Soviet Union. But post-Castro with a drug cartel taking over 
Cuba poses, to me, a greater national security problem.
    And I'm wondering about your assessment in regards to trade 
with Cuba so you can hang your hat on getting some kind of an 
entrepreneurial peg down there so that we can make some 
progress.
    Chairman Graham. Senator, could I ask you to hold that 
question? I think Senator Wyden had a final question he wanted 
to ask.
    Senator Wyden. I did have one last question. With your 
leave, Mr. Chairman, if we could get an answer to Senator 
Roberts, and then I can ask one additional one.
    Chairman Graham. Certainly----
    Senator Roberts. I'm sorry for taking your time, Ron.
    Senator Wyden. Not at all.
    Director Tenet. Senator, can I take that for the record? I 
don't have an answer off the top of my head.
    Senator Roberts. Certainly. Thank you.
    Senator Wyden. The last question I had deals with 
technology. I think this would be appropriate for you, Director 
Tenet. My sense is right now if you look at In-Q-Tel, if you 
look at the Department of Defense, if you look at the various 
agencies, we're now having the federal government flooded with 
vendors and products and a variety of ideas for how to combat 
terrorism. It is all very constructive. I think we welcome it. 
And I've read publicly what In-Q-Tel has been trying to do, and 
I think it's clearly a step in the right direction. But there 
doesn't seem to be much of a process for evaluating the merits 
of these various and sundry technologies.
    I'm working on legislation now that would establish a 
national testbed that would allow us, in one place, to look at 
these various products for potential intelligence-gathering and 
information-sharing technologies.
    We've been pleased at the general comments that you all 
have made about this idea. I would just like to get a statement 
in the public domain here whether you think that that is 
generally a sensible idea to have one place, a national testbed 
where these products could be examined?
    Director Tenet. I haven't thought about it. It makes sense. 
I think that with In-Q-Tel, though, I mean, it's a very focused 
effort. And we do identify very specific problems and very 
specific solutions that we've migrated to us, at CIA, when I 
say ``us,'' and we're also trying to expand this to other 
elements of the intelligence community. I mean, unclassified 
environment, you know, access to people and technologies we 
would never otherwise see; great ability to sort of really get 
into a world that otherwise would not be open to us. And the 
technology is applicable to all kinds of problems.
    So we feel that it's been very successful as a model. But 
certainly, sir, some centralized testbed may be, you know, 
helpful to all.
    Mr. Watson. Senator, I think that would be very helpful in 
the fact that there are departments and agencies within the 
federal government that cannot communicate electronically, have 
different systems. And certainly in the information-sharing 
world, which we're moving into, it would certainly be very 
beneficial.
    Senator Wyden. We will have draft legislation to show you 
with respect to this process of testing for technology. I do 
think In-Q- Tel is on to some very important initiatives. One 
of the things that triggered my interest in this is that 
they've said that they have really been at a loss as to try to 
figure out how to evaluate all these products.
    We'll show you the legislation in draft form shortly.
    Thank you, Mr. Chairman.
    Admiral Wilson. Senator, I do want to mention, in Defense 
we have the C4ISR battle lab in Suffolk, where we try to 
integrate the best ideas in the Joint Task Force commander and, 
you know, war- fighting setting; the Joint Interoperability 
Test Center, which does the same, technically make sure things 
interoperate.
    So certainly it's been a long-term challenge for us, and we 
have some steps that are important going in the direction 
you're talking about. It may not be national, but they may be 
built on.
    Senator Wyden. Well, you all have worked very closely with 
us. Dr. Wenegar testified yesterday. My concern is you've got 
20 agencies now that are working in areas, for example, like 
bioterrorism. I've been concerned that you if you have a 
bioterror attack in a givencommunity it's not possible today to 
get in one place a list of experts who can assist with this. And what 
you have, essentially, are all of these agencies proceeding with their 
own kinds of rules. We'd like to bring this together in one place.
    The Administration's been very cooperative in terms of 
working with us. We'll show you the draft legislation shortly.
    And I thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator. Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman.
    A question for Mr. Watson. You know, when we talk about the 
sort of al-Qa'ida and we talk about the White Aryan Nation, we 
talk about different groups that are terrorists or capable of 
doing terrorism, we tend to divide them into categories. And 
I've never heard anybody address whether or not there is any 
interaction, either within our country or internationally, 
among those groups. Now granted, the White Aryan Nation 
probably doesn't have a very large role in Saudi Arabia, let's 
say. But what about the whole concept of terrorist groups, 
potential terrorist groups, cooperating.--I mean, we have 
groups in our own country that are organized in 34 states, and 
you know the one I'm talking about. My question is, is there 
any interaction among these types of groups on the national 
level and, to whatever extent Director Tenet can tell 
internationally.
    Mr. Watson. Specific communications, we do see some 
interaction and communications between groups. But with the 
explosion of the Internet, we certainly see white supremacist 
groups in contact with people in Europe, particularly in 
Germany, et cetera.
    We see on the terrorism, on the international terrorism 
front, we see people here and overseas communicating mainly via 
the Internet and talking back and forth and communicating that 
way. Again, we get--we the FBI--a lot of people come in and say 
you've got an individual down in West Virginia or Houston, 
Texas, that's complaining against the regime of government. And 
these are friends of ours. And we have to look at that and take 
a look at it, and that's something that's protected under the 
Constitution.
    But there are groups that do communicate. We see more and 
more of that. I don't think you were here when we were talking 
about the cyber-threat, but that is a real area--a growth area, 
and we'll see more of that.
    Senator Rockefeller. So there's not direct communication 
vis-a-vis higher-ups or middle-level types getting together and 
talking, but they use third-party, i.e. the cyber world, in 
order to do their communicating. But is it communicating of a 
planning nature, or is it just keeping in touch?
    Mr. Watson. I'm sure we'll talk about this in the closed 
sessions. There are a lot of indicators and key things we look 
at as well as the intelligence community about codes, et 
cetera. I mean, what are they talking about, what does this 
mean.
    And the Agency has done a great job. The CIA has done a 
great job of trying to figure out what they're talking about, 
if they're talking about key words. They do communicate 
electronically. And I don't want to mislead you in any way to 
say they do not. But they do.
    Senator Rockefeller. Director Tenet, there's always the 
talk of our coalition. I made a trip recently to the Middle 
East, and I kept bringing up the subject of Iraq. And I did 
that provocatively in order to elicit response. And always the 
question of the power of the coalition or the disintegration of 
the coalition was brought up in stronger or weaker terms.
    But is that not something that we can assume? For me, I'm 
looking at 20, 25, 30 years of this. And isn't it probable that 
as we look at coalitions we cannot assume that they're going to 
sort of stay stable, but that they're going to ebb and flow, 
that some countries will wander off, that Saudi Arabia may come 
close to not being particularly friendly to us, maybe perhaps 
not breaking relations or anything of that sort. But then in 
two or three years, a series of events could happen, perhaps 
within that country or whatever, which would bring the 
coalition back into another form.
    So it's an ebb and flow type situation, and we shouldn't 
try to measure the power of our effort always according to the 
aggregate sum of whatever value you attach to a coalition?
    Director Tenet. No, I agree with that. I think the other 
thing, particularly in that part of the world, is, as you 
probably--you got a private message and a public message. And 
you always see two forms. But I think in isolation, without 
knowledge about what you're thinking, I mean, everybody is very 
careful.
    You're correct. I mean, when you lead, everybody follows. 
Nothing ensures coalition success like success. And so the 
replication of--particularly in the war on terrorism. Iraq may 
be a separable issue, but there's nothing that succeeds in 
coalescing people when they see progress being made and real 
results and real will to pursue whatever policy objective you 
set out. It's when you get into the stage of languish and other 
things start to undermine what the original focus was that 
things start to drift away from you.
    So that focus and leadership brings people to you. And you 
should always start from the perspective of--and this is a 
policy issue; I shouldn't be talking about it--what my 
leadership means in bringing everybody to me rather than 
worrying about it from the other side.
    Senator Rockefeller. So another way of putting that is the 
word unilateralism is used sometimes. And I'm not asking for a 
comment at this point, but the point is that if a country is 
showing absolute resolve, that that has an effect on what it is 
that countries who may be somewhat more on the fence or are 
somewhat worried will, in fact, choose to do with respect to 
how they coalesce.
    Director Tenet. Absolutely. And it also has an impact on 
others whose behavior you're seeking to modify at any moment in 
time, because that success, they have to be mindful of it. They 
have to look at the power of your operations and your policy. 
So that kind of success also has an impact on behavior you want 
to change someplace else. So it should not be underestimated.
    Senator Rockefeller. Thank you.
    Vice Chairman Shelby [presiding]. The U.S., as we all know, 
has accomplished something extraordinary with its military 
operation in Afghanistan, clearly in ways and with capabilities 
that no other country can match, at least today. How will our 
successes to date affect other countries' assessments of our 
role in the world and their relationship to us? And Director 
Tenet, especially how will such assessments perhaps affect our 
military intelligence relationship with other nations?
    Director Tenet. I think that all of these relationships 
will be affected very positively and powerfully by what we've 
done.
    Vice Chairman Shelby. Out of respect?
    Director Tenet. Yes, but they also have seen the power of 
information-sharing, coalition warfighting, intelligence-
sharing. They've seen benefits. And quite frankly--we can talk 
about this in closed session--the Afghan scenario has 
revolutionized modern warfare just in terms of technology and 
its application and the mating of human capabilities on the 
ground and Special Forces and your air war.
    Vice Chairman Shelby. The ability to project force too.
    Director Tenet. There are lots of interesting lessons here 
that we're all obviously going to study. It never gets applied 
in the same way in the next place or other places, but I think 
it's had a powerful impact.
    Vice Chairman Shelby. But it's these positive lessons 
learned, isn't it?
    Director Tenet. Oh, absolutely, sir.
    Admiral Wilson. There's certainly multiple consumers out 
there that watch our military and intelligence community act, 
and they think of ways to fight the next war as well. And so we 
must not rest on the laurels of precision strike and all that 
stuff, but continue to move through and analyze and understand 
how our strengths can actually be used as weaknesses.
    The other thing is, I think there is some concern expressed 
by even friends about the widening gap between the U.S. 
military capability and their own, and that we can do the heavy 
lifting and then they're in the peacekeeping and the mud and 
slug and all of that.
    Vice Chairman Shelby. Heavy lifting--you mean project force 
and----
    Admiral Wilson. We have the ability to do--it's a widening 
gap in military capabilities, and so, as we continue to build 
coalitions, we need to work hard to capitalize on military, 
political, intelligence coalitions that can work well together.
    Vice Chairman Shelby. To go to another area that the 
Director and I have worked together on over the years, that's 
leaks. The security of our intelligence activities in the fight 
that we're in is clearly a great concern to the President, to 
the Secretary of Defense, and, I know, to you, Director Tenet, 
and the FBI Director. All of you have spoken out against leaks 
of classified information. How damaging have such public 
revelations been to the intelligence community's efforts, 
Director Tenet?
    Director Tenet. Well, sir, I think you know what I'm going 
to say here.
    Vice Chairman Shelby. Yes.
    Director Tenet. But I mean, I think that----
    Vice Chairman Shelby. Well, we're going into a classified 
hearing later.
    Director Tenet. Yes. I just need to reinforce that when you 
throw this information out, it often appears innocuous to 
someone who's leaking information. That's not the prism to look 
at it in. It's the adversary's counterintelligence capability--
--
    Vice Chairman Shelby. That's right.
    Director Tenet [continuing]. And his ability to put 
together the pieces of the puzzle that put at risk your human 
operations, your technical operations, your analytical 
products, and jeopardizes investment that we've made to protect 
the American people.
    Vice Chairman Shelby. It's a problem, isn't it?
    Director Tenet. It continues to be a problem, sir.
    Vice Chairman Shelby. Mr. Watson.
    Mr. Watson. I absolutely agree.
    Vice Chairman Shelby. On behalf of the bureau. Go ahead.
    Mr. Watson. Yes, absolutely, and it limits our ability to 
obtain additional information, because people are real leery 
about providing information if they think that's going to get 
found out.
    Vice Chairman Shelby. Compromised, you say. Admiral Wilson.
    Admiral Wilson. I think it could be devastating.
    Vice Chairman Shelby. And it has at times, hasn't it?
    Admiral Wilson. To sources and methods.
    Vice Chairman Shelby. Mr. Ford.
    Mr. Ford. I couldn't agree more.
    Vice Chairman Shelby. We have a vote on the floor. Of 
course, Senator Graham, the Chairman, has gone to vote. So I'm 
going to need to vote. I'm not going to adjourn this Committee, 
because Senator Graham's coming back. We'll stand in recess 
till Senator Graham comes back. Is that okay?
    Director Tenet. Yes, sir.
    Vice Chairman Shelby. Thank you.
    [Whereupon, a brief recess was taken.]
    Chairman Graham [presiding]. The hearing will reconvene. We 
are in the midst of one vote, and there'll be another vote 
following immediately. So we'll probably just have a few more 
minutes of questioning and then we'll adjourn until 3:30 this 
afternoon, when we'll reconvene in closed session.
    The issue that I'm interested in pursuing is, what are some 
of the lessons that we learned on September 11, and how are we 
applying actions against those lessons? In my first round, I 
asked about the question of deterrence, based on the 
information that apparently Usama bin Ladin did not believe 
that we were committed to retaliating, and therefore, that he 
could take the actions that he did with a sense of impunity. 
And I'm going to be interested in closed session in pursuing 
further what we're doing to communicate to other terrorist 
organizationsand nations which might harbor terrorists or 
provide them with advanced means of weapons of mass destruction, so 
that they do not make the same mistake that bin Ladin did relative to 
what our intentions would be.
    A second area that has been mentioned is the fact that 
terrorists crossed our national borders and gained entry to the 
United States fairly easily. I was surprised to learn that if a 
U.S. consular office with someone standing in front of them 
requesting a visa wanted to know what was the criminal 
background of that individual or if that individual had a 
criminal background, that, insofar as Interpol is concerned--
the international police organization--that for about half the 
countries in the world, many of the countries that we would be 
most concerned about, there is no capability of providing that 
information.
    What steps have we taken or would you recommend that we 
should take at every step in the process of a person gaining 
entry to the United States, such as the grant of a visa, 
screening at the point of entry into the United States that 
would harden our boarders against entry by potential 
terrorists?
    Mr. Ford. Mr. Chairman, there is, as you know, a number of 
mechanisms already in place through the consular service, 
through the visa process, through an office in my bureau, which 
we call TIPOFF. And it's a community resource that provides a 
list of both known terrorists and also, in some cases, 
international organized crime figures. This status is supplied 
by liaison services, by CIA, by FBI, DEA--whoever--so that each 
of our consular posts has an electronic hookup with our 
database, that when someone on our list shows up, it doesn't 
always tell them what the problem is, but it says you don't 
give a visa to this person unless you check with Washington 
first. And then we can provide them with the information.
    Chairman Graham. Was that system in effect prior to 
September the 11th?
    Mr. Ford. It was.
    Chairman Graham. All right.
    Mr. Ford. So that, obviously, it's not foolproof. If you 
have not been picked up as a bad actor by one of our law 
enforcement agencies, intelligence agencies or one of our ally 
or friend's agencies, you won't be on the list. You also can 
have an alias. And you have to balance that in terms of, one, 
both the economic and other interests that people all over the 
world have in traveling to the United States. The sheer numbers 
of people that go through the process, I find staggering. And 
secondly, there are a lot of countries that we do not require 
visas; they just simply have to have a passport. So that those 
people also are very difficult to track.
    Chairman Graham. But were any of the terrorists involved in 
the September 11 attacks from a country where a visa was not 
required?
    Mr. Ford. I'll have to take that question. I don't think 
so, but I'll check.
    [Answer supplied for the record: The ``20th hijacker,'' 
Zacharias Moussaoui, entered without a visa as a French 
citizen.]
    Admiral Wilson. Senator, I'd like to follow this up in a 
closed session about a cooperative program that we have ongoing 
with the Immigration and Naturalization Service, first for 
counter intelligence, but it has immense applications in this 
world that we're pursuing rapidly.
    Also I wanted to just comment. You mentioned about lessons 
learned since September 11. And if I had to cite one thing, it 
would be the value of being on the offense--the value of 
getting prisoners, the value of getting documents, the value of 
operating in their lairs, the value of having them move and run 
and talk and all this. It gives us so much more leverage and 
options than when you're purely on the defense. And so there's 
a tremendous value to that. I'm not sure if the lesson's 
learned, but it's a lesson reinforced.
    Chairman Graham. Well, I'm going to hold the further 
discussion on the immigration issue for the closed session, but 
to go to the issue of value of being on the offensive, I was 
interested that in the speech that he gave last week, Secretary 
Rumsfeld used the term ``preemptive strikes,'' that we would be 
prepared not to wait until we've been attacked, but if we saw 
developments that were threatening, to move in a peremptory 
manner. What are the implications of that commitment to act 
peremptorily to our intelligence agencies, starting, Admiral 
Wilson, to the----
    Admiral Wilson. First of all, I would say that, you know, 
most people think of about preemptive strikes in terms of the 
military, and certainly that is one venue for attack, but I 
suspect that the Secretary was talking about preemptive strike 
with all of our national capability: intelligence cooperation, 
security forces, financial attacks. And it's also combined with 
this offense, in terms of not just being working on warning and 
threat levels, but also targeting options, targeting packages, 
the kind of work you have to do in the military. We talk about 
preparing the battle space. So we have certainly increased 
dramatically our efforts in the areas of preparing for future 
attacks.
    Mr. Ford. It's very difficult to go on the offensive 
without having good intelligence. It's always important. But if 
you're going after specific groups or individuals, whether 
through law enforcement or whether it's through military action 
or diplomatic pressure, you have to have the evidence, you have 
to have the information to act on. And so that the pressure on 
all of us has grown considerably after 9/11. We've got to get 
better.
    Chairman Graham. For instance, one of the things that we've 
talked about that al-Qa'ida used were training grounds. They 
prepared a whole cadre of people who they then placed around 
the world to be ready to initiate action. And I think were not 
all of the 19 hijackers graduates of one of al-Qa'ida's 
training programs? That would seem to be an example of 
preemptive strikes. Are we gathering intelligence on the 
training facilities of other terrorist groups, and are we 
preparing ourselves with the kind of military, but also other, 
capabilities to peremptorily take out those training 
capabilities?
    Admiral Wilson. Absolutely.
    Chairman Graham. Maybe that's something you'd like to 
discuss in more detail in closed session.
    Director Tenet. Maybe. [Laughter.]
    Chairman Graham. Are there any other lessons that we have 
learned from the events of September the 11th that have an 
implication to our intelligence capabilities?
    Mr. Watson. I think there are some things we probably 
should talk about in the closed session, some other trends that 
we saw as a result of the 19, Senator. Be glad to do that this 
afternoon with you.
    Chairman Graham. Okay.
    There are some implications of what happened on September 
11 that I would describe as being the over-the-horizon threats. 
As an example, we know that Afghanistan had been the world's 
largest producer of heroin. We destroyed a substantial amount 
of warehoused heroin during our attacks, and I would doubt that 
this is going to be a friendly growing season for heroin 
production in Afghanistan in the year 2002. That raises the 
question of will the world's supply be thus diminished, or will 
there be other locations that might step forward to take a part 
of the production that Afghanistan has traditionally provided?
    A major heroin producer, relatively recent heroin producer, 
is Colombia. What do we know about the possibility of a 
significant increase in heroin production in Colombia to 
replace what has previously come from Afghanistan? And if our 
intelligence indicates that is in fact a possibility, what 
steps can we take to deal with it?
    Mr. Ford. Mr. Chairman, I'm not ready to write off so 
quickly that Afghanistan will no longer be a problem for our 
counternarcotics efforts.
    Chairman Graham. Even in 2002, with the kind of 
international presence that's going to be in there?
    Admiral Wilson. I think actually I've seen some assessments 
that, because there's relatively more freedom in Afghanistan 
than there was under the Taliban and people are struggling 
economically, that there may actually be not a change or even a 
surge in heroin cultivation.
    Mr. Ford. And there is also the storage of crops from 
before, and that----
    Chairman Graham. That's inside or outside of Afghanistan?
    Mr. Ford. Inside Afghanistan.
    So while I think that it will continue to be a problem, my 
guess is that 2002 may be a little bit better than 2003, 2004. 
But it's still a problem. But there's always someone somewhere 
who seems to find a way to make up for any shortfalls, 
unfortunately. There's so much money involved that people are 
prepared to take almost any risk to continue to provide heroin. 
We're just going to have to keep on top of it.
    Director Tenet. Senator, why don't we provide you an 
assessment for the record on what the Crimes and Narcotics 
Center--take all these facts and put them forward to you in a 
piece of analysis. I think it might be helpful.
    Chairman Graham. All right. And I'm going to hold the rest 
of my questions until after we reconvene at 3:30. Senator 
Rockefeller, do you have any final questions?
    Senator Rockefeller. I can do it later.
    Chairman Graham. We're going to reconvene at 3:30 in a 
closed session.
    If there are no other questions, first, I would like to say 
that I think one of the lessons that we've learned since 
September 11 is just how good our intelligence agencies are. 
The infrastructure that was in place in Central Asia that 
allowed us to conduct the military operation didn't just happen 
in the afternoon of September 11. It represented a vision of 
where the United States would have the need to develop 
information and the maintenance of an infrastructure that put 
us in a position to have the information when we needed it.
    The fact that the first people on the ground in Afghanistan 
were intelligence officers and that the first casualty in terms 
of loss of life was an intelligence officer are examples of the 
dedication and courage of the men and women who represent us 
through your agencies. And on behalf of the American people, 
there is a deep recognition and appreciation of what you have 
done.
    And I recognize that much of the commentary, including some 
today, has been phrased in terms of questioning what happened 
or what didn't happen. But I hope that the American people 
understand that those questions are being asked in the sense of 
how, together, do we take a strong set of agencies and make 
them even stronger in the face of the new threats that have now 
become so apparent. And I want to personally express my 
appreciation for your individual leadership and for the people 
that you lead so effectively.
    Director Tenet. Thank you, Senator.
    [Whereupon, at 12:25 p.m., the Committee adjourned.]
    [GRAPHIC] [TIFF OMITTED] 81064A.122
    
    [GRAPHIC] [TIFF OMITTED] 81064A.123
    
    [GRAPHIC] [TIFF OMITTED] 81064A.124
    
    [GRAPHIC] [TIFF OMITTED] 81064A.125
    
    [GRAPHIC] [TIFF OMITTED] 81064A.126
    
    [GRAPHIC] [TIFF OMITTED] 81064A.127
    
    [GRAPHIC] [TIFF OMITTED] 81064A.128
    
    [GRAPHIC] [TIFF OMITTED] 81064A.129
    
    [GRAPHIC] [TIFF OMITTED] 81064A.130
    
    [GRAPHIC] [TIFF OMITTED] 81064A.131
    
    [GRAPHIC] [TIFF OMITTED] 81064A.132
    
    [GRAPHIC] [TIFF OMITTED] 81064A.133
    
    [GRAPHIC] [TIFF OMITTED] 81064A.134
    
    [GRAPHIC] [TIFF OMITTED] 81064A.135
    
    [GRAPHIC] [TIFF OMITTED] 81064A.136
    
    [GRAPHIC] [TIFF OMITTED] 81064A.137
    
    [GRAPHIC] [TIFF OMITTED] 81064A.138
    
    [GRAPHIC] [TIFF OMITTED] 81064A.139
    
    [GRAPHIC] [TIFF OMITTED] 81064A.140
    
    [GRAPHIC] [TIFF OMITTED] 81064A.141
    
    [GRAPHIC] [TIFF OMITTED] 81064A.142
    
    [GRAPHIC] [TIFF OMITTED] 81064A.143
    
    [GRAPHIC] [TIFF OMITTED] 81064A.144
    
    [GRAPHIC] [TIFF OMITTED] 81064A.145
    
    [GRAPHIC] [TIFF OMITTED] 81064A.146
    
    [GRAPHIC] [TIFF OMITTED] 81064A.147
    
    [GRAPHIC] [TIFF OMITTED] 81064A.148
    
    [GRAPHIC] [TIFF OMITTED] 81064A.149
    
    [GRAPHIC] [TIFF OMITTED] 81064A.150
    
    [GRAPHIC] [TIFF OMITTED] 81064A.151
    
    [GRAPHIC] [TIFF OMITTED] 81064A.152
    
    [GRAPHIC] [TIFF OMITTED] 81064A.153
    
    [GRAPHIC] [TIFF OMITTED] 81064A.154
    
    [GRAPHIC] [TIFF OMITTED] 81064A.155
    
    [GRAPHIC] [TIFF OMITTED] 81064A.156
    
    [GRAPHIC] [TIFF OMITTED] 81064A.157
    
    [GRAPHIC] [TIFF OMITTED] 81064A.158
    
    [GRAPHIC] [TIFF OMITTED] 81064A.159
    
    [GRAPHIC] [TIFF OMITTED] 81064A.160
    
    [GRAPHIC] [TIFF OMITTED] 81064A.161
    
    [GRAPHIC] [TIFF OMITTED] 81064A.162
    
    [GRAPHIC] [TIFF OMITTED] 81064A.163
    
    [GRAPHIC] [TIFF OMITTED] 81064A.164
    
    [GRAPHIC] [TIFF OMITTED] 81064A.165
    
    [GRAPHIC] [TIFF OMITTED] 81064A.166
    
    [GRAPHIC] [TIFF OMITTED] 81064A.167
    
    [GRAPHIC] [TIFF OMITTED] 81064A.168
    
    [GRAPHIC] [TIFF OMITTED] 81064A.169
    
    [GRAPHIC] [TIFF OMITTED] 81064A.170
    
    [GRAPHIC] [TIFF OMITTED] 81064A.171
    
    [GRAPHIC] [TIFF OMITTED] 81064A.172
    
    [GRAPHIC] [TIFF OMITTED] 81064A.173
    
    [GRAPHIC] [TIFF OMITTED] 81064A.174
    
    [GRAPHIC] [TIFF OMITTED] 81064A.175
    
    [GRAPHIC] [TIFF OMITTED] 81064A.176
    
    [GRAPHIC] [TIFF OMITTED] 81064A.177
    
    [GRAPHIC] [TIFF OMITTED] 81064A.178
    
    [GRAPHIC] [TIFF OMITTED] 81064A.179
    
    [GRAPHIC] [TIFF OMITTED] 81064A.180
    
    [GRAPHIC] [TIFF OMITTED] 81064A.181
    
    [GRAPHIC] [TIFF OMITTED] 81064A.182
    
    [GRAPHIC] [TIFF OMITTED] 81064A.183
    
    [GRAPHIC] [TIFF OMITTED] 81064A.184
    
    [GRAPHIC] [TIFF OMITTED] 81064A.185
    
    [GRAPHIC] [TIFF OMITTED] 81064A.186
    
    [GRAPHIC] [TIFF OMITTED] 81064A.187
    
    [GRAPHIC] [TIFF OMITTED] 81064A.188
    
    [GRAPHIC] [TIFF OMITTED] 81064A.189
    
    [GRAPHIC] [TIFF OMITTED] 81064A.190
    
    [GRAPHIC] [TIFF OMITTED] 81064A.191
    
    [GRAPHIC] [TIFF OMITTED] 81064A.192
    
    [GRAPHIC] [TIFF OMITTED] 81064A.193
    
    [GRAPHIC] [TIFF OMITTED] 81064A.194
    
    [GRAPHIC] [TIFF OMITTED] 81064A.195
    
    [GRAPHIC] [TIFF OMITTED] 81064A.196
    
    [GRAPHIC] [TIFF OMITTED] 81064A.197
    
    [GRAPHIC] [TIFF OMITTED] 81064A.198
    
    [GRAPHIC] [TIFF OMITTED] 81064A.199
    
    [GRAPHIC] [TIFF OMITTED] 81064A.200
    
    [GRAPHIC] [TIFF OMITTED] 81064A.201
    
    [GRAPHIC] [TIFF OMITTED] 81064A.202
    
    [GRAPHIC] [TIFF OMITTED] 81064A.203
    
    [GRAPHIC] [TIFF OMITTED] 81064A.204
    
    [GRAPHIC] [TIFF OMITTED] 81064A.205
    
    [GRAPHIC] [TIFF OMITTED] 81064A.206
    
    [GRAPHIC] [TIFF OMITTED] 81064A.207
    
    [GRAPHIC] [TIFF OMITTED] 81064A.208
    
    [GRAPHIC] [TIFF OMITTED] 81064A.209
    
    [GRAPHIC] [TIFF OMITTED] 81064A.210
    
    [GRAPHIC] [TIFF OMITTED] 81064A.211
    
    [GRAPHIC] [TIFF OMITTED] 81064A.212
    
    [GRAPHIC] [TIFF OMITTED] 81064A.213
    
    [GRAPHIC] [TIFF OMITTED] 81064A.214
    
    [GRAPHIC] [TIFF OMITTED] 81064A.215
    
    [GRAPHIC] [TIFF OMITTED] 81064A.216
    
    [GRAPHIC] [TIFF OMITTED] 81064A.217
    
    [GRAPHIC] [TIFF OMITTED] 81064A.218
    
    [GRAPHIC] [TIFF OMITTED] 81064A.219
    
    [GRAPHIC] [TIFF OMITTED] 81064A.220
    
    [GRAPHIC] [TIFF OMITTED] 81064A.221
    
    [GRAPHIC] [TIFF OMITTED] 81064A.222
    
    [GRAPHIC] [TIFF OMITTED] 81064A.223
    
    [GRAPHIC] [TIFF OMITTED] 81064A.224
    
    [GRAPHIC] [TIFF OMITTED] 81064A.225
    
    [GRAPHIC] [TIFF OMITTED] 81064A.226
    
    [GRAPHIC] [TIFF OMITTED] 81064A.227
    
    [GRAPHIC] [TIFF OMITTED] 81064A.228
    
    [GRAPHIC] [TIFF OMITTED] 81064A.229
    
    [GRAPHIC] [TIFF OMITTED] 81064A.230
    
    [GRAPHIC] [TIFF OMITTED] 81064A.231
    
    [GRAPHIC] [TIFF OMITTED] 81064A.232
    
    [GRAPHIC] [TIFF OMITTED] 81064A.233
    
    [GRAPHIC] [TIFF OMITTED] 81064A.234
    
    [GRAPHIC] [TIFF OMITTED] 81064A.235
    
    [GRAPHIC] [TIFF OMITTED] 81064A.236
    
    [GRAPHIC] [TIFF OMITTED] 81064A.237
    
    [GRAPHIC] [TIFF OMITTED] 81064A.238
    
    [GRAPHIC] [TIFF OMITTED] 81064A.239
    
    [GRAPHIC] [TIFF OMITTED] 81064A.240
    
    [GRAPHIC] [TIFF OMITTED] 81064A.241
    
    [GRAPHIC] [TIFF OMITTED] 81064A.242
    
    [GRAPHIC] [TIFF OMITTED] 81064A.243
    
    [GRAPHIC] [TIFF OMITTED] 81064A.244
    
    [GRAPHIC] [TIFF OMITTED] 81064A.245
    
    [GRAPHIC] [TIFF OMITTED] 81064A.246
    
    [GRAPHIC] [TIFF OMITTED] 81064A.247
    
    [GRAPHIC] [TIFF OMITTED] 81064A.248
    
    [GRAPHIC] [TIFF OMITTED] 81064A.249
    
    [GRAPHIC] [TIFF OMITTED] 81064A.250
    
    [GRAPHIC] [TIFF OMITTED] 81064A.251
    
    [GRAPHIC] [TIFF OMITTED] 81064A.252
    
    [GRAPHIC] [TIFF OMITTED] 81064A.253
    
    [GRAPHIC] [TIFF OMITTED] 81064A.254
    
    [GRAPHIC] [TIFF OMITTED] 81064A.255
    
    [GRAPHIC] [TIFF OMITTED] 81064A.256
    
    [GRAPHIC] [TIFF OMITTED] 81064A.257
    
    [GRAPHIC] [TIFF OMITTED] 81064A.258
    
    [GRAPHIC] [TIFF OMITTED] 81064A.259
    
    [GRAPHIC] [TIFF OMITTED] 81064A.260
    
    [GRAPHIC] [TIFF OMITTED] 81064A.261
    
    [GRAPHIC] [TIFF OMITTED] 81064A.262
    
    [GRAPHIC] [TIFF OMITTED] 81064A.263
    
    [GRAPHIC] [TIFF OMITTED] 81064A.264
    
    [GRAPHIC] [TIFF OMITTED] 81064A.265
    
    [GRAPHIC] [TIFF OMITTED] 81064A.266
    
    [GRAPHIC] [TIFF OMITTED] 81064A.267
    
    [GRAPHIC] [TIFF OMITTED] 81064A.268
    
    [GRAPHIC] [TIFF OMITTED] 81064A.269
    
    [GRAPHIC] [TIFF OMITTED] 81064A.270
    
    [GRAPHIC] [TIFF OMITTED] 81064A.271
    
    [GRAPHIC] [TIFF OMITTED] 81064A.272
    
    [GRAPHIC] [TIFF OMITTED] 81064A.273
    
    [GRAPHIC] [TIFF OMITTED] 81064A.274
    
    [GRAPHIC] [TIFF OMITTED] 81064A.275
    
    [GRAPHIC] [TIFF OMITTED] 81064A.276
    
    [GRAPHIC] [TIFF OMITTED] 81064A.277
    
    [GRAPHIC] [TIFF OMITTED] 81064A.278
    
    [GRAPHIC] [TIFF OMITTED] 81064A.279
    
    [GRAPHIC] [TIFF OMITTED] 81064A.280
    
    [GRAPHIC] [TIFF OMITTED] 81064A.281
    
    [GRAPHIC] [TIFF OMITTED] 81064A.282
    
    [GRAPHIC] [TIFF OMITTED] 81064A.283
    
    [GRAPHIC] [TIFF OMITTED] 81064A.284
    
    [GRAPHIC] [TIFF OMITTED] 81064A.285
    
    [GRAPHIC] [TIFF OMITTED] 81064A.286
    
    [GRAPHIC] [TIFF OMITTED] 81064A.287
    
    [GRAPHIC] [TIFF OMITTED] 81064A.288
    
    [GRAPHIC] [TIFF OMITTED] 81064A.289
    
    [GRAPHIC] [TIFF OMITTED] 81064A.290
    
    [GRAPHIC] [TIFF OMITTED] 81064A.291
    
    [GRAPHIC] [TIFF OMITTED] 81064A.292
    
    [GRAPHIC] [TIFF OMITTED] 81064A.293
    
    [GRAPHIC] [TIFF OMITTED] 81064A.294
    
    [GRAPHIC] [TIFF OMITTED] 81064A.295
    
    [GRAPHIC] [TIFF OMITTED] 81064A.296
    
    [GRAPHIC] [TIFF OMITTED] 81064A.297
    
    [GRAPHIC] [TIFF OMITTED] 81064A.298
    
    [GRAPHIC] [TIFF OMITTED] 81064A.299
    
    [GRAPHIC] [TIFF OMITTED] 81064A.300
    
    [GRAPHIC] [TIFF OMITTED] 81064A.301
    
    [GRAPHIC] [TIFF OMITTED] 81064A.302
    
    [GRAPHIC] [TIFF OMITTED] 81064A.303
    
    [GRAPHIC] [TIFF OMITTED] 81064A.304
    
    [GRAPHIC] [TIFF OMITTED] 81064A.305
    
    [GRAPHIC] [TIFF OMITTED] 81064A.306
    
    [GRAPHIC] [TIFF OMITTED] 81064A.307
    

</pre></body></html>
